<html>
<title> - THE 2002 WINTER OLYMPICS IN SALT LAKE CITY, UTAH: COOPERATION BETWEEN FEDERAL, STATE, LOCAL AND PRIVATE AGENCIES TO ADDRESS PUBLIC SAFETY CONCERNS</title>
<body><pre>[Senate Hearing 107-367]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-367

 THE 2002 WINTER OLYMPICS IN SALT LAKE CITY, UTAH: COOPERATION BETWEEN 
  FEDERAL, STATE, LOCAL AND PRIVATE AGENCIES TO ADDRESS PUBLIC SAFETY 
                                CONCERNS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 31, 2001

                          SALT LAKE CITY, UTAH

                               __________

                          Serial No. J-107-25

                               __________

         Printed for the use of the Committee on the Judiciary


78-538              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
                                     MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1

                               WITNESSES

Beattie, Lane, State Olympic Officer for the State of Utah, Salt 
  Lake City, Utah................................................    21
Condon, Kathryn, Special Assistant for Military Support, Office 
  of the Secretary of the Army, Washington, D.C..................    16
Dinse, Charles, Vice Director, Utah Olympic Public Safety Command 
  and Salt Lake City Chief of Police, Salt Lake City, Utah.......    31
Magaw, John, Acting Deputy Director, Federal Emergency Management 
  Agency, Washington, D.C........................................     8
Romney, Mitt, President and Chief Executive Officer, Salt Lake 
  City Organizing Committee, Salt Lake City, Utah................    25
Stafford, Brian, Director, United States Secret Service, 
  Department of the Treasury, Washington, D.C....................     6
Thompson, Larry, Deputy Attorney General, Department of Justice, 
  Washington, D.C................................................     3
Tubbs, David, Executive Director, Utah Olympic Public Safety 
  Command, Salt Lake City, Utah..................................    24
Warner, Paul, United States Attorney for the District of Utah, 
  Salt Lake City, Utah...........................................    17
Watson, Dale, Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigation, Washington, D.C...............    13

                       SUBMISSIONS FOR THE RECORD

Immigration and Naturalization Service, statement................    42
United States Customs Service, Charles Winwood, Acting 
  Commissioner, statement........................................    44

 
 THE 2002 WINTER OLYMPICS IN SALT LAKE CITY, UTAH: COOPERATION BETWEEN 
  FEDERAL, STATE, LOCAL AND PRIVATE AGENCIES TO ADDRESS PUBLIC SAFETY 
                                CONCERNS

                              ----------                              


                         THURSDAY, MAY 31, 2001

                              United States Senate,
                                Committee on the Judiciary,
                                                 Salt Lake City, UT
    The Committee met, pursuant to notice, at 1 p.m., in the 
Scholarship Room, Rice-Eccles Stadium and Tower at the 
University of Utah, Salt Lake City, UT, Hon. Orrin Hatch 
presiding.
    Present: Senator Orrin Hatch.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Senator Hatch. I call this hearing of the Senate Judiciary 
Committee in order to examine the cooperation among Federal, 
state, local and private agencies to address public safety for 
the 2002 Winter Olympics.
    I am so honored to be here with all of these very able 
leaders. When we hold hearings in Washington, D.C., all we get 
to look at are the same four walls you've seen hundreds of 
times before. I think this setting is a whole lot better.
    I think I like this setting more than almost anything I can 
think of right now. It is a magnificent view of our beautiful 
valley. And it is exciting to look over and just see the 
setting where the opening and closing ceremonies of the 2002 
Winter Olympics will be held.
    The stadium is quiet today. Just imagine the spirit and 
pride that will thrive here in less than 10 months. This is an 
inspiring facility. It's a wonderful facility. It will house 
the hopes and dreams of so many athletes. It had been uplifting 
to me to observe so many Utahns working together to host the 
Olympic games.
    You all know staging the Olympics doesn't just happen. It 
takes very careful planning and cooperation. So I feel it is 
important that the United States Judiciary Committee exercise 
over these highly visible and important games.
    I have been talking to different agencies involved in the 
planning and execution of one of the largest public safety 
events in this country's history. I have gained a new 
appreciation for the magnitude of work that has already been 
done.
    I think Mitt has given you a little bit of understanding 
about that. There have been extraordinary cooperative measures 
taken. I want to publicly confirm this cooperation and ensure 
that everyone involved has an opportunity to discuss additional 
initiatives to further improve the public safety and posture of 
the games.
    As you can see, we have a number of witnesses here with us 
today who represent some of the key players involved in the 
planning and execution of the 2002 Winter Olympics. It is 
apparent to me by the agency leadership gathered around the 
table that the public safety issue has the attention of the 
agencies in Washington D.C., as well as in the field.
    I want to thank all of you for taking the time to travel 
and be with us here today, especially during the Memorial Day 
week, in order to present your testimony.
    The enormity of this Olympic event is quickly understood 
when you consider that there are over 60 Federal, state and 
local agencies, as well as the private sector working for the 
public safety of all participants and attendees. This includes 
not only law enforcement, but also the important roles the fire 
and emergency medical support have, and the public safety 
commission as well.
    Past experience has shown that with so many agencies 
involved in the planning and execution of any large event, 
there is a tendency for the lines of communication to become 
long, complex, and sometimes slow. There is also a risk that 
interests will hamper cooperation.
    This nation, and in particular Utah, has a long history of 
overcoming organizational and cultural differences to work 
together for a common cause. I have great confidence in all of 
your abilities here at this table and elsewhere and I look 
forward to working with all of you to make the games a success.
    In fact, I am very encouraged and impressed by what I've 
seen and heard so far in reviewing the public safety plans for 
this event. Let me point out two particular occurrences that 
demonstrate the opportunity for unprecedented interagency 
communication and cooperation for preparation for the 2002 
Olympics.
    First, in August 1999, the 2002 Salt Lake City Olympics 
were designated a national security event by Presidential 
directive number 62. This Presidential directive also defined 
the roles of Federal agencies, specifically the Secret Service, 
the Federal Bureau of Investigation, and Federal Emergency 
Management Agency. I think it is important to note that these 
Federal agencies are not here to replace state and local 
agencies, but rather to augment them when a crisis exceeds 
their capabilities.
    The second occurrence that impresses me is the 1998 bill 
passed by the Utah State Legislature that created a unified 
organizational structure of law enforcement, fire service, 
public works, emergency management, and emergency medical 
services from all government levels and involved jurisdictions. 
I'm very proud of our state legislature for having done that. 
We certainly want to hear how the Utah Olympic Public Safety 
Command integrates all these services.
    We have before us an opportunity to break new ground and 
actually develop a blueprint for similar events that will 
follow our Olympic games. Much of the groundwork and planning 
for the 2002 Olympics has tremendous applicability across a 
broad spectrum of endeavors where interagency cooperation is a 
part.
    For example, the law enforcement legacy of the Olympics may 
help solve some of the issues that the administration, 
Congress, and state authorities have wrestled with concerning 
the development and execution of home land defense and domestic 
preparedness plans.
    There are a lot of spinoffs from the Salt Lake Olympics 
that are going to benefit this country well into the future. 
What we are interested in right now is how are we going to make 
these Olympics secure and safe and workable in every way for 
all of those who come to attend and participate in what Mitt 
Romney has described as a tremendous, tremendous undertaking 
right in front of our eyes and to see a great nation hosting 
games, a great city and state hosting games that really will 
make a difference in all of our lives.
    Let me introduce the panel we have with us today. First, we 
have Larry Thompson, Deputy United States Attorney General. 
Larry, thank you for coming out here and being with us. Brian 
Stafford, Director of Secret Service. John Magaw, Acting Deputy 
Director of Federal Emergency Management Agency. Dale Watson, 
Assistant Director of the Counterterrorism Division of the FBI. 
Kathryn Condon, Special Assistant for Military Support, 
Secretary of the Army. Paul Warner, U.S. Attorney, District of 
Utah. Lane Beattie, State Olympic Officer. Robert Flowers, 
Commissioner, Utah Department of Public Safety. David Tubbs, 
Executive Director of Utah Olympic Public Safety Command. 
Charles Dinse, Vice Director, Utah Olympic Public Safety 
Command and Salt Lake City Chief of Police. Mitt Romney, 
President and CEO, Salt Lake City Organizing Committee.
    At this time, I'll be happy to take opening remarks from 
those who desire to make them. Due to time constraints I would 
ask that each of you keep your initial statements brief so that 
we can spend the majority of the time discussing the important 
issues involved. We'll turn to you, Deputy Attorney General 
Thompson and look forward to hearing what you have to say.

     STATEMENT OF LARRY THOMPSON, DEPUTY ATTORNEY GENERAL, 
            DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Thompson. Good afternoon, Chairman. Can you hear me?
    Senator Hatch. Yes, sir. I think you could get a little 
closer.
    Mr. Thompson. It my privilege, great privilege, to appear 
before you today for the purpose of discussing the role of the 
Department of Justice in working with the State of Utah, with 
Federal, state and local agencies, and with the Congress to 
ensure that the 2002 Winter Olympics will be safe and 
successful.
    As you know, Mr. Chairman, I was confirmed a little over 2 
weeks ago. I want to thank you publicly for all of your support 
on the Committee to confirm. I am just getting acquainted with 
all my responsibilities and was delighted to learn that the 
Department has been actively involved in preparing for the 2002 
Winter Olympic Games and Paralympic Winter Games. The 
Department of Justice is deeply committed to working 
cooperatively to ensure that the 2002 Games are safe.
    This morning I had the opportunity to tour some of the 
Olympic venues. It is a pleasure now to be sitting in this 
beautiful stadium which will host some of the Olympic events. 
Salt Lake City provides a magnificent setting for these 
historic games.
    I want to do everything I can to ensure that people from 
all over the world can come to the Games, bring their families, 
enjoy the spectacular beauty of Utah and the excitement of 
world-class athletic competition, and feel safe and secure 
doing so.
    The Department has invested heavily in this goal. Our 
investment has been as a partner with Federal, state and local 
agencies in planning for and preparing to provide law 
enforcement and public safety support for the Games. We have 
invested funds in this effort, but more importantly, we have 
invested substantially in time, people and energy.
    The Department plays two key roles in ensuring public 
safety and law enforcement support for the Olympics: First, we 
work with all the agencies and components involved to plan and 
prepare for a safe and secure Winter Olympics.
    We started fulfilling that responsibility shortly after 
Utah was awarded the Games in 1995. For instance, the Utah 
Olympic Public Safety Command was required by statute to write 
a security plan for the Games, actually, a ``game plan'' for 
providing law enforcement and public safety services throughout 
the Winter Olympics and the Paralympic Games.
    Through our Office of Justice Programs, we have made nearly 
$3 million available to assist in the development of that plan. 
The plan has been written and it has been tested.
    We have also provided funding through OJP to arrange for 
housing and other services for the law enforcement officers who 
will be involved in ensuring Olympic public safety during the 
Games in 2002. We have assisted in providing and have 
participated in training exercises. In addition, we continue to 
provide support for a planning and operations center.
    The department has always believed that good working 
relationships among Federal, state and local agencies lead to 
effective law enforcement. Our efforts to provide needed 
funding are important. But perhaps as important as anything 
that I have talked about so far is the role that our Law 
Enforcement Coordinating Committee has played in connection 
with the Games.
    Our Law Enforcement Coordinating Committees, or LECC's, in 
each of the 94 districts around the country prove every day 
that working together enhances the effectiveness of law 
enforcement in our communities. When I was the U. S. Attorney 
in Atlanta, I had personal experience with the LECC. I know 
that the LECC concept works. And nowhere has that been better 
demonstrated than by the Department's support of the District 
of Utah's Olympic LECC Initiative.
    I will let U. S. Attorney Paul Warner discuss his Office's 
efforts, but I want to thank him publicly for dedicating a 
senior Assistant U. S. Attorney, David Schwendiman, to work 
full-time with the Utah Olympic Public Safety Command. That's 
an unprecedented dedication of resources.
    David's efforts have complemented those of our other 
Department personnel who have worked for over 3 years on 
preparations for the 2002 Olympic Games. Aided by their 
efforts, and with the personal involvement of the U. S. 
Attorney, we have forged effective working relationships with 
the Federal, state and local law enforcement agencies you see 
before you today, as well as with other agencies and components 
involved in the day-to-day planning and preparing for the 
games. This is a coordinated approach that the department fully 
supports. This kind of approach works and is essential to good 
law enforcement.
    Our second role, Mr. Chairman, is crisis management and 
response. We sincerely hope that through our preparation and 
planning, we will never have to resort to crisis response. But 
if anything happens to disrupt the peace and serenity of the 
Utah Games, it is our responsibility to be prepared to address 
it. That responsibility is one we also share with Federal, 
state and local law enforcement agencies.
    As you know, in August 1999, the 2002 Olympic Games were 
designated as a National Special Security Event. Consistent 
with that designation, the FBI, as lead agency for crisis 
management, is working closely with the Secret Service, FEMA 
and other Federal, state and local law enforcement, crisis 
management and consequence management agencies to plan not only 
for security and public safety at the Olympics, but also for 
crisis response.
    These efforts are significant, since the Games will involve 
more than 3,500 athletes participating in events at many 
official Olympic venues over a very large geographic area. The 
Paralympics will follow the Winter Games with more than 1,000 
athletes participating.
    Don Johnson, Special Agent in Charge of the FBI's Salt Lake 
City Field Office, has done an outstanding job in preparing to 
meet this challenge. Mr. Johnson and his agents have ensured 
that their planning efforts are in full partnership with their 
Federal, state, and local law enforcement counterparts.
    FBI Assistant Director Dale Watson is here, of course, to 
speak about the FBI's efforts in this regard. He and all our 
law enforcement partners at this table have my and my 
department's full support.
    I want to close by saying that I believe that the Olympic 
Games and the Paralympic Games are exciting and worthwhile. 
From the Games, heroes are made. They show us and our children 
the value of dedication and commitment to our goals. They show 
us that dreams can come true. That is why, as I said before, 
the Department of Justice is fully committed to working with 
all the agencies represented on this panel to ensure public 
safety and security for the 2002 Olympic Games.
    Mr. Chairman, at this time I would be pleased to answer any 
questions after the other panel members have made their opening 
statements.
    Senator Hatch. Thank you. Brian Stafford of the United 
States Secret Service. Appreciate you being here.

  STATEMENT OF BRIAN STAFFORD, DIRECTOR, UNITED STATES SECRET 
     SERVICE, DEPARTMENT OF THE TREASURY, WASHINGTON, D.C.

    Mr. Stafford. Good afternoon, Mr. Chairman. I would like to 
thank you and the other members of the Committee for providing 
a forum such as this on the 2002 Winter Olympics.
    On behalf of the United States Secret Service, I appreciate 
the opportunity to address our involvement with planning for 
the Winter Games, and to highlight the partnerships we have 
formed in the process of developing an operational security 
plan.
    Coordinating security for an event of this scale is a 
monumental undertaking. We are expecting over 3,500 athletes, 
officials and other participants; 9,000 media personnel, and an 
estimated 1.9 million spectators attending competitions at 10 
different venues. The games will proceed over a 17-day period, 
beginning with the opening ceremonies on February 8, 2002. The 
sheer number of people involved, coupled with the sprawling 
geographical area that must be secured, is a challenge.
    The responsibilities of the Secret Service also extend to 
providing a secure environment at the Olympic Village, the 
Media Center, and Rice-Eccles Olympic Stadium. In all, the 
Secret Service is responsible for the coordination of security 
in a theater of operation encompassing over 900 square miles 
from venues in downtown Salt Lake City, to more remote events 
in Provo and Ogden.
    The goal of the Secret Service is to work with our partners 
in Federal, state and local law enforcement, as well as with 
local officials in Utah, to provide a safe and secure 
environment for the participants and spectators, without 
diminishing the majesty and grandeur surrounding the Winter 
Olympics.
    As Americans, we remember the magical moments inspired by 
Olympic Athletes. But we also remember the tragedies brought by 
terrorists in Munich in 1982 and Atlanta in 1996.
    The Secret Service's involvement with the 2002 Winter 
Olympics predates August 1999, when the Winter Games were 
designated as a National Special Security Event. Even before 
this designation was made, the Secret Service had initiated the 
process of joining with other Federal, state and local agency 
representatives in security preparation for the Winter Games. 
This highlights one of the many advantages of our field office 
presence across the United States.
    As early as 1997, it was our personnel who were already in 
place in Salt Lake City and the other regional field offices 
that began working with other agency representatives and local 
officials in the public safety planning process.
    The Secret Service has also been an active, voting 
participant in a leadership-level Committee dedicated to the 
development of an overall safety plan for the Winter Games. 
This committee, known as the Utah Olympic Public Safety 
Command, UOPSC, represents 20 Federal, state and local agencies 
in the seven county impacted area.
    At Snowbasin, one of the alpine venues, the Secret Service 
and the Weber County Sheriff's Department are developing an 
operational security plan for the 3,000 acre site. Securing a 
venue of this size and scope is a challenge for even the most 
experienced public safety planners and demonstrates the 
necessity of interagency cooperation and our reliance on these 
and other local law enforcement agencies. Other examples of 
these collaborative efforts include our partnerships with the 
Summit County Sheriff's Department and the Provo Police 
Department.
    Recognizing the need to establish an extensive operational 
presence throughout the 900 square miles encompassing the 
Winter Games, the Secret Service has established four different 
regional support facilities, with sites in Salt Lake City, 
Ogden, Heber City, and Park City.
    Inside the secure perimeter of each venue, the Secret 
Service's Technical Security Division is working closely with 
explosive specialists from other state and Federal agencies.
    Their objective is to ensure that nothing has been placed 
inside the venue ahead of time that could cause death or 
serious physical injury, and to assist Olympic planners in the 
development of appropriate protocols for Hazardous Materials 
and other technical security issues related to major events.
    Once that task is completed, TAD specialists, in 
cooperation with the UOPSC Bomb Management Center, will be in 
place at each official venue to provide screening of packages 
and vehicles entering the venue.
    In addition, our TAD specialists for the Winter Games have 
been working closely with other explosives experts to develop 
and implement the overall Explosives Ordinance Disposal Plan 
for the Winter Games.
    In yet another example of interagency cooperation, the 
Secret Service and the FBI have been working closely to ensure 
that both the operational security elements and the crisis 
response elements of the Federal counterterrorism plan relative 
to EOD have been properly and effectively integrated in the EOD 
plan. The Secret Service has also actively participated with 
the Department of State and the Olympic Committee in the 
development of an accreditation protocol for the 2002 Winter 
Games.
    As you know, Mr. Chairman, no plan can be properly 
implemented without a reliable communications network. The 
Secret Service has provided a full-time dedicated 
communications specialist to work in conjunction with other 
specialists from the Utah Olympic Public Safety Command, who 
are required to have a sophisticated communications network 
capable of servicing all of our public safety partners. This 
critical project has received significant contributions from 
the Department of Defense, the FBI, a number of other Federal 
law enforcement agencies and roughly 45 state and local public 
safety departments in Utah.
    When the 2002 Winter Olympics is examined from a security 
perspective, the Secret Service should be viewed as the 
preventative component that the Federal Government has in place 
here in Utah.
    Our efforts at each Olympic venue represent a multi-layered 
approach. First, perimeter security. Second, physical security 
barriers. Third, Explosive Ordinance Disposal sweeps and 
searches, and fourth, airspace security.
    Perimeters are generally established at the outer boundary 
of each venue where vehicles and pedestrians might first enter, 
and at the point where access would be controlled by 
magnetometers. These perimeters are maintained by security 
posts that are strategically positioned to deter any possible 
intrusion.
    Physical security features, such as fencing and concrete 
barriers, are consistent with a counterterrorism plan, but in a 
manner that is as non-obtrusive as possible. These features are 
regrettably necessary to prevent unauthorized access to the 
venues, as well as to protect each venue from any sort of 
catastrophic event, such as a weapon of mass destruction 
delivered by a vehicle.
    Before a venue can be considered ready for its scheduled 
event and activities, we must first determine that the site is 
free and clear of any pre-existing or planted explosives. This 
determination is made by first sealing off the site, followed 
by a methodical search conducted by qualified EOD technicians. 
The Secret Service employs these methods daily in its 
protective mission, and has developed the sweep and search plan 
for the official venues in the same manner.
    Securing these venues and protecting them from terrorist 
threats cannot be complete without addressing the airspace 
above each venue. All venues have been pre-designated as being 
a temporary flight restricted area (TRFA) and will be monitored 
by the U. S. Customs Service and Federal Aviation 
Administration for potential incursions. This capability also 
includes an air-response component that is designed to 
investigate, identify and redirect any intruding aircraft. 
Personnel involved with these assets have received extensive 
operational training in an airborne environment.
    In conclusion, Mr. Chairman, the Secret Service is proud of 
our collaborative effort with other Federal, state and local 
law enforcement agencies in providing a safe and secure 
environment for the 2002 Winter Olympics. No single agency 
could accomplish such an undertaking on its own, and we simply 
could not perform this mission successfully without the 
critical assistance, support and expertise provided by both our 
Federal partners, and the dedicated law enforcement community 
in Utah.
    That concludes my prepared statement and I would be happy 
to answer any questions that you or other members of the 
Committee may have.
    Senator Hatch. Thank you, Mr. Stafford. We are happy to 
have you here.

   STATEMENT OF JOHN MAGAW, ACTING DEPUTY DIRECTOR, FEDERAL 
         EMERGENCY MANAGEMENT AGENCY, WASHINGTON, D.C.

    Mr. Magaw. Thank you, Mr. Chairman.
    I'm John Magaw, Acting Deputy Director of the Federal 
Emergency Management Agency. The FEMA Director couldn't be here 
today and regrets that he was unable to be here with you.
    I am grateful to the distinguished members of this 
Committee for the opportunity to appear before you today in 
Salt Lake City to address public safety and security concerns 
during the 2002 Olympic Winter Games.
    The 2002 Olympic Winter Games have been designated a 
National Special Security Event. The roles and responsibilities 
for Federal counterterrorism planning and operations for a 
National Special Security Event are divided between the United 
States Secret Service, the Federal Bureau of Investigation and 
FEMA. While the role each organization plays is distinct, it is 
critical that they must be coordinated so that any response is 
handled seamlessly. This coordination is required not only at 
the Federal level, but also at State and local levels.
    The deputy director of FEMA asked me to represent him here 
today and regrets that he is unable to be here but he sends you 
his best regards and commitment to support in these games. FEMA 
is pleased to appear before you to today to discuss the 
cooperation among Federal, state, local and private agencies to 
address public safety concerns during the 2002 Olympic winter 
games. FEMA's whole being is coordinating and working with 
others. Whether it is an earthquake or whatever it might be. So 
we're here with that in mind.
    Our whole plan is to work together as a team. While my 
comments on behalf of the Director are by and large focused on 
Federal efforts, these efforts are clearly at the request and 
in the cooperation with all state and local entities.
    With me today is Pete McCursky who is FEMA's chief project 
officer for the Olympics. He's been working with this since 
1977 or 1978 and he stays with it day in and day out. We're 
proud of his special efforts. He will continue to be here as 
things gear up and move along, so that there would be a 
consistency.
    The 2002 Olympic Winter Games, as Mr. Stafford has already 
said, are a National Special Security Event. And as such, the 
three main units, Secret Service, FBI, and FEMA coordinate and 
must work together to bring in all the other Federal assets. 
Each organization plays a distinct and critical role as has 
already been mentioned, what they play. Crisis management is 
FBI and clearly for FEMA is the consequence. But they are never 
apart. They are shoulder to shoulder.
    At the Federal level, with helping FEMA and working closely 
with FEMA to respond to the consequences of an event is the 
Department of Energy, Department of Health and Human Services, 
the Environmental Protection Agency, Justice, Transportation, 
Agriculture and also with the support of the Defense 
department.
    All in all, there are 27 agencies signed on to a Federal 
Response Plan. That Federal Response Plan along with the 26 or 
27 Federal departments plus the American Red Cross provides the 
guidelines for a quick interface, a complete interface, lack of 
duplication.
    And so it applies whether it is a storm somewhere or a 
flood in the Mississippi, or whether it is a terrorist threat 
or terrorist act of weapons of mass destruction. Clearly they 
are not all the same, but a lot of the basic cooperation 
response is the same.
    In 1997, the terrorism index annex was added to this 
Federal Response Plan. And the state and locals are well aware, 
most of them have copies and are working with this Federal 
Response Plan. There is also another plan that you might hear 
about and that is what's called the CONPLAN. That goes into a 
little bit more depth of how all the Federal entities are going 
to interface with the state and locals as they need us to do 
so.
    FEMA also enjoys a strong working relationship with the 
Utah division of comprehensive emergency management, Utah 
Olympic Public Safety Command, Salt Lake city office of risk 
management, and Salt Lake City Olympic committee.
    In coordination with each of these organizations, FEMA and 
with other members that have already been described, is 
developing an operation supplement to that Federal Response 
Plan that I talked to you about which pulls all these agencies 
together. And there is a special supplement for the Olympics. 
It's being pulled together with all of the elements so that 
there is a smooth functioning operation.
    There is a panel known and made up of representatives of 
the Secret Service, FBI, U.S. Attorney's Office, DOJ, Utah 
National Guard and FEMA, that is playing a role in reviewing 
all the requests, all the ideas, requests for services and help 
and equipment to make sure that we're properly utilizing all of 
the assets across this country within the Federal assets 
without duplication and also without overloading the area with 
unneeded resources, but having them stand by fairly close.
    At the state level, FEMA is a member of two Utah Olympic 
planning subcommittees, that's emergency management and the 
infrastructure protection. Also, as requested by the State of 
Utah FEMA has been evaluating and assisting with the refinement 
of the Utah public safety Committee Olympic plan. These efforts 
at the national, regional, state and local level demonstrate 
cooperative nature in the coordination of these activities. 
FEMA recognizes that developing plans alone is not sufficient. 
Plans must be exercised and they must be tested. And we have 
participated in a variety of exercises, workshops and seminars.
    Through these activities over the last months, a number of 
things of been learned and coordinations have been refined and 
the stand by of equipment and personnel and resources have been 
refined.
    Over the next seven or 8 months there will be many 
additional exercises, FEMA will participate in all of them and 
will continue to work toward the final package. FEMA intends to 
build on the experiences of each of these exercises by 
conducting also a seminar with state and regional interagency 
steering committees, Secret Service and the FBI in August of 
2001. We've already conducted one tabletop exercise that was 
very beneficial.
    FEMA also conducted an integrated emergency management 
course. FEMA found that in each area a lot of times the total 
package of personnel did not get together to discuss a 
particular problem. So that we have put on two of those 
programs where everybody from the mayor to the police chief to 
the fire chief to the state and locals all participated in 
workout projects so that it isn't the first time as something 
happens.
    The participants represented were Salt Lake City, Ogden, 
Park City, Provo, West Lake, Heber City as well as Salt Lake, 
Weber, Summit, Utah and Wasatch counties and will continue to 
work those kinds of exercises as we move closer to the event.
    Through these efforts and these working relationships, our 
closeness and our understanding of each other is almost like a 
family. Yes, we might have a discussion about a certain event, 
but we will reach a conclusion that is workable for all 
entities.
    So on behalf of Director Allbaugh, I thank you again for 
the opportunity to appear here today and to discuss this 
extremely important event. Mr. Chairman, that concludes my 
statement.
    [The prepared statement of Mr. Magaw follows:]

  STATEMENT OF JOHN MAGAW, ACTING DEPUTY DIRECTOR, FEDERAL EMERGENCY 
                           MANAGEMENT AGENCY

    Good afternoon, Mr. Chairman. I am John Magaw, Acting Deputy 
Director of the Federal Emergency Management Agency.
    I am grateful to the distinguished members of this committee for 
the opportunity to appear before you today in Salt Lake City to address 
public safety and security concerns during the 2002 Olympic Winter 
Games.
    The 2002 Olympic Winter Games have been designated a National 
Special Security Event (NSSE). The roles and responsibilities for 
Federal counter-terrorism planning and operations for a National 
Special Security Event are divided between the United States Secret 
Service, the Federal Bureau of Investigation, and FEMA. While the role 
each organization plays is distinct, it is critical that they must be 
coordinated so that any response is handled seamlessly. This 
coordination is required not only at the Federal level, but also at 
State and local levels.
    The division of roles and responsibilities include:

        <bullet> FEMA is the Lead Agency for Consequence Management. 
        Consequence Management involves Federal departments' and 
        agencies' efforts to respond to the consequences or potential 
        consequences of an incident as they relate to public health, 
        safety, and property. The Federal role in Consequence 
        Management is to support the State, as the State is ``in 
        charge.''
        <bullet> The U.S. Secret Service is the Lead Agency for 
        designing, planning and implementation of security at the 2002 
        Winter Olympics, I defer to the Secret Service to discuss their 
        roles and responsibilities in this area.
        <bullet> The FBI is the Lead Agency for Crisis Management. 
        Crisis Management involves efforts to prevent, pre-empt, or 
        terminate terrorist threats or acts, and apprehend and 
        prosecute the perpetrators. In turn, I defer to the FBI to 
        define its roles and responsibilities in this area.

    The Federal Response Plan (FRP) is the basic framework used to 
manage and coordinate a Federal response in support of State and local 
governments to a full range of emergencies, including response to 
terrorist threats or terrorist incidents involving Weapons of Mass 
Destruction (WMD). The FRP organizes 26 Federal departments and 
agencies and the American Red Cross into interagency response functions 
and recovery and hazard mitigation program areas to mesh with 
counterpart agencies in an affected State.
    Since 1997, the Federal Response Plan has included a Terrorism 
Incident Annex to describe how consequence management operations under 
the Federal Response Plan will be coordinated with crisis management 
operations led by the FBI. Additional details are spelled out in the 
``United States Government Interagency Domestic Concept of Operations 
Plan'', or CONPLAN, which was published in January 2001. The CONPLAN 
provides overall guidance to Federal, State and local agencies 
concerning how the Federal Government would respond to a potential or 
actual terrorist threat or incident that occurs in the United States, 
particularly one involving WMD. The key Federal agencies involved in 
terrorism Consequence Management are FEMA, the Department of Energy, 
the Department of Health and Human Services, and the Environmental 
Protection Agency, with support from the Department of Defense.
    While the CONPLAN and the Federal Response Plan provide an overall 
framework for preparing for the Games, FEMA has worked closely with 
other Federal agencies including the FBI and the USSS, and State, 
local, and private agencies, to plan for the specifics of ensuring the 
safety and security of the public during the 2002 Olympic Winter Games 
and to test planning concepts in exercises.
    FEMA has established sound working relationships with the FBI, 
USSS, Utah Division of Comprehensive Emergency Management, Utah Olympic 
Public Safety Command, Salt Lake City Office of Emergency Management, 
and the Salt Lake City Olympic Committee.
    In coordination with these organizations, FEMA is developing an 
Operations Supplement to the Federal Response Plan (FRP) for the 2002 
Olympic Winter Games. This Supplement describes those unique actions 
that will be used to ensure a timely and effective initial Federal 
response to an incident that is beyond the capability of the State and 
local resources. These actions include the pre-positioning of Federal 
assets and placing Federal response teams on alert for consequence 
management activities.
    FEMA's Region VIII has utilized the Regional Interagency Steering 
Committee (RISC) as the basic planning body for development and 
coordination of this Operations Supplement. The RISC is comprised of 
regional emergency managers from the Federal Response Plan departments 
and agencies, the FBI, the USSS, and State emergency managers and 
officials.
    The National Special Security Event Review Panel is comprised of 
representatives from the FBI, US Secret Service, US Attorney's Office, 
DOD/Director of Military Support, and the Utah National Guard and FEMA. 
This Review Panel is playing a major role in reviewing and validating 
State requests for Federal consequence and crisis management resources 
in support of the Winter Games. The efforts of this Panel will 
significantly impact which Federal resources are employed to ensure the 
safety and security of the public during the Games.
    FEMA is a member of two of the Utah Olympic Public Safety Committee 
Olympic Plan subcommittees: Emergency Management and Infrastructure 
Protection.
    Also in response to a request by the State of Utah, FEMA has been 
evaluating and refining the Utah Olympic Public Safety Committee 
Olympic Plan.
    It is not sufficient just to develop plans. Plans must be put into 
practice and tested. That is why FEMA, along with other consequence 
management agencies, the FBI, and the USSS have participated in a 
variety of exercises, workshops, and seminars to prepare for the Games. 
It is through these activities that roles and responsibilities are 
clarified and mutual understandings are built-not just for those who 
have been writing the plans, but also for everyone who must execute the 
plans.
    The major Winter Olympics exercise activity to date has been 
WASATCH RINGS, an FBIsponsored command post exercise held in November 
2000 and field training exercise which was conducted this past April. 
FEMA, other Federal consequence management agencies, and the State and 
local emergency management community participated in the design, 
development, and conduct of these exercises. The exercise solidified 
understandings of the relationship between crisis and consequence 
management operations, and allowed consequence management agencies to 
demonstrate good teamwork among themselves and with the State.
    FEMA intends to build on this experience at this exercise by 
conducting a seminar with the State, the RISC, and FBI and USSS in 
August. FEMA had already conducted a seminaressentially a scenariobased 
discussion of plans and planning issues-for the RSC in February of 
2002.
    FEMA also has conducted two Integrated Emergency Management Courses 
(IEMC) to help Utah and the Salt Lake City area prepare for the Games. 
The IEMC is an exercise-based course developed around a community's or 
State's existing plans and procedures.
    The first IEMC was given at the National Emergency Training Center 
in Emmitsburg, Maryland, on March 12-16, 2001 prior to the Wasatch 
Rings field exercise. Representatives from State agencies and the Salt 
Lake Organizing Committee (SLOC) were among the 100 participants, but 
this offering was primarily for local offcials who would coordinate an 
emergency response at the Olympics. Participants represented Salt Lake 
City, Ogden, Park City, Provo, West Lake, and Heber City, as well as 
Salt Lake, Weber, Summit, Utah, and Wasatch Counties.
    The second IEMC, a more complex course, was designed for Utah State 
agencies and was conducted at the State Emergency Operations Center in 
Salt Lake City on April 16-20, 2001. The focus was on public health 
issues that could arise from a terrorist act, but the exercise was 
expanded to include an earthquake along the Wasatch fault. Some 246 
people completed both the classroom and the exercise portions of the 
course, and 411 participated in the exercise portions.
    State officials were able to use this IEMC to resolve coordination 
issues that had arisen in Wasatch Rings and to identify issues needing 
additional attention.
    FEMA makes other resources available to the State of Utah and its 
localities for terrorism preparedness, including grant funding 
($231,220 in FY 2001 Terrorism Consequence Management Preparedness 
Assistance), planning guidance and job aids, and training courses from 
the Emergency Management Institute and National Fire Academy. 
Furthermore, Utah already has a strong foundation for preparedness and 
response through capabilities developed under the Chemical Stockpile 
Emergency Preparedness Program.
    We have strengthened our working relationships at the Federal, 
State and local levels in preparing for the Games, and I am confident 
that the on-going planning upcoming exercise activities will continue 
to enhance Federal, State, local and private agencies' ability to 
adequately provide for the safety and security of the public during the 
2002 Olympic Winter Games.
    Thank you again for the opportunity to appear today. I would be 
pleased to answer any questions you may have.

    Senator Hatch. Turning to Mr. Watson, who is the Assistant 
Director of Counterterrorism at the FBI in Washington.

        STATEMENT OF DALE WATSON, ASSISTANT DIRECTOR OF 
COUNTERTERRORISM, FEDERAL BUREAU OF INVESTIGATION, WASHINGTON, 
                              D.C.

    Mr. Watson. Thank you, Senator Hatch. I'll be brief. The 
statement has been prepared and I'll summarize a few key points 
of that. I want to say that I'm honored to be here today with 
you and discuss this partnership on the Olympic preparedness. 
The FBI, the goal of the FBI is to have a safe and successful 
Olympics. It is a higher priority, there's no question about 
that, among the FBI. It is also good to see all our Federal 
partners here at the table today and I'm happy to report that 
that partnership not only in fact with headquarters in 
Washington, but here working and it's progressing very, very 
well.
    So with that in mind I'll jump into the main text of what I 
want to talk about. It started, our FBI planning started early 
in 1995 with the announcement, as soon as they announced that 
Salt Lake City would have the Olympics. Don Johnson has already 
been mentioned by Mr. Thompson. Ray has done a super job 
coordinating that effort.
    Initially, the office in Salt Lake City formed up a 
planning squad that consists of coordinating all the efforts of 
the Federal level, state and local and making sure there are 
issues that are brought forward and working with all the 
partners.
    In addition to that, we understand and recognize as has 
already been discussed that this is a world event. It's not 
only Salt Lake City, State of Utah and the United States but it 
is a world stage. We take that very seriously in the 
preparation phase to make sure that the goal is accomplished.
    The second area that the FBI did was in May of 2000 create 
a joint terrorist task force here. That brings in all 40 
members, part-time, full-time, representatives across the board 
of all jurisdictions affected by the Olympics here. That is a 
coordinated effort. I know, Senator Hatch, that you are very 
concerned about information sharing, particularly in the 
intelligence side. We have requested top secret clearance for 
all those individuals. So if there is some information that's 
classified, that information can be shared. I understand your 
concerns in that area.
    In 1998 a long-term building agreement was reached to have 
an Olympic coordination center. We've been to that location. It 
is very valuable to us. And in addition to that, coordinating 
through Dave Tubbs and the other partners there, again in the 
classified area, 50 over 50 top secret security clearances have 
been requested and will be active well prior to the Olympics. 
So in the event that there is information that needs to get to 
the operators, that needs to get to the decisionmakers, it 
won't be held back and they will have access to that 
information. That's a very key point for us.
    The next area is in the area of training. We have very 
specific requirements in training, the old saying that practice 
makes permanent and not perfection, we take that very serious. 
In November we had a major CBX that put into practice 
information sharing and how agencies would coordinate.
    We followed up on that, learned some lessons on that. It 
has been mentioned we had a major training exercise here in 
April where 1600 people participated to try to work out 
problems, areas that we needed to do a better job in. and that 
training will continue. Next week we have a weapons of mass 
destruction conference here, and another CBX in the fall in 
order to streamline and understand what the issues are.
    So as FEMA has represented here, it is a family operation 
and no one is left behind.
    In conclusion, I'd like to say that we are here for a safe 
and successful Olympics and I appreciate your support that 
you've provided us in the past. We look forward to continuing 
this partnership. This partnership with all law enforcement 
committees here, Secret Service, will continue long after the 
Olympics are over and that will be a very successful part of 
this whole program. I thank you.
    [The prepared statement of Mr. Watson follows:]

 STATEMENT OF DALE L. WATSON, ASSISTANT DIRECTOR, FBI COUNTERTERRORISM 
                                DIVISION

    Good afternoon, Senator Hatch, members of the Committee, and law 
enforcement colleagues. It is a pleasure to be with you today to 
discuss security preparations for the 2002 Winter Olympics in Salt Lake 
City, Utah. As you know from my previous briefings in Washington, D.C., 
major special events are a high priority for the FBI. We have been 
heavily involved in coordinated threat assessment and security 
proceedings for the 2002 Winter Olympics. Today, I'd like to 
concentrate my remarks on the Olympic Counterterrorism Center, the 
Olympic Joint Terrorism Task Force, and Command Post and Field Training 
exercises, as they relate to interagency cooperation and public safety.
    As the lead federal agency responsible for crisis management, 
intelligence, hostage rescue, and the investigation of acts of 
terrorism, the FBI is resolved to continuing to promote effective 
interagency cooperation. Collectively, our goal is to ensure that all 
reasonable preparations and contingency plans are in place to create an 
environment throughout Salt Lake City, the state of Utah, and the 
entire nation in which we may host a safe and successful 2002 Winter 
Olympic Games. In that regard, let me assure you that we have been 
working diligently and continuously with our colleagues and 
counterparts at the federal, state and local levels. I am particularly 
pleased to be here today with representatives of two of our key federal 
partners, the Federal Emergency Management Agency and the United States 
Secret Service, as well as, of course, Deputy Attorney General Thompson 
and United States Attorney Warner.
    Since the International Olympic Committee (IOC) selected Salt Lake 
City to stage the 2002 Winter Olympic Games on June 19, 1995, the FBI 
has undertaken significant counterterrorism planning in an effort to 
help ensure the safety and security of this major international 
sporting event. Leading the FBI's planning efforts in Salt Lake City is 
SAC Don Johnson, an active member of the Utah Olympic Public Safety 
Command (UOPSC). He is assisted in this effort by the FBI's Olympic 
Planning Squad which addresses all matters relating to FBI involvement, 
interagency cooperation, and support to the Games. The members of this 
squad are assigned full time to Olympic planning and are directly 
responsible for coordinating programs in the areas of: theater wide 
tactical planning, public safety training, communications systems, 
infrastructure protection, intelligence, weapons of mass destruction, 
explosive ordinance disposal, aviation support, media affairs, and 
accreditation, as well as numerous other Olympic planning functions.
    With attendance anticipated to be in the millions, the 
participation of some 3,500 athletes from over 80 nations, and daily 
support provided by over 20,000 organizers and planners, the 2002 
Olympic Winter Games easily qualifies as a world class sporting event. 
Coverage by over 9,000 media representatives broadcasting to a 
television audience in excess of 3.5 billion viewers will catapult 
these Games onto the world stage. Planning for the public safety and 
security of the Games has required an unprecedented level of 
cooperation and coordination among the myriad of local, state and 
federal law enforcement entities with responsibilities associated with 
the Games. There exists an unquestioned consensus among these agencies 
that it is impossible for any single law enforcement agency to possess 
all the resources required and expertise necessary to accomplish this 
task alone.
    Planning for the public safety and security essential for hosting a 
safe and successful Games has long been recognized as every agency's 
primary objective. However, in the process of planning for the 
realization of this goal I believe that each of the law enforcement 
agencies involved has already accomplished something of equal 
importance. I am speaking of the partnerships that have been created at 
all levels of law enforcement which have been required to advance the 
Olympic public safety and security planning process. These partnerships 
will exist as a legacy long after the 17 days of the XIX Olympiad have 
past. I would like to briefly illustrate for you today how these 
partnerships have been built and how they have served to create a truly 
integrated Olympic Public Safety and Security Plan.

                  The Olympic Counterterrorism Center:

    From the outset each agency recognized, due to the unique 
jurisdictional, legislative and budgetary issues as well as widely 
different agency capabilities, that Olympic public safety and security 
planning would require an immense amount of interagency communication 
and cooperation. In 1998, in the spirit of interagency cooperation, the 
FBI entered into a multi-year lease for office space to house the 
Olympic Coordination Center, Olympic Counterterrorism Center, the FBI 
Critical Incident Command Post, and the Joint Operations Center. This 
facility houses representatives of state, local, and federal agencies 
in a coordinated effort to address Olympic planning, preparation, and 
execution. To further this communication, the FBI has requested Top 
Secret security clearances for fifty local, state and federal partners 
to alleviate in advance any impediment to the open and complete sharing 
of information which may impact Olympic public safety.

                The Olympic Joint Terrorism Task Force:

    Another planning and operational requirement identified early on in 
the process was the need to combine and coordinate law enforcement 
capabilities from agencies at all levels to be able to rapidly assess 
threats and investigate significant incidents during the games. In May 
2000, the FBI established the Olympic Joint Terrorism Task Force 
(OJTTF). The OJTTF is currently comprised of over 40 full and part-time 
local, state, and federal law enforcement officers and agents 
representing dozens of agencies and jurisdictions. Task forces, by 
design, are excellent vehicles for bringing to bear the specialized 
resources of each member's parent agency. The OJTTF is capable of 
collecting and analyzing intelligence, and investigating matters in 
virtually any jurisdiction at any level. This ability has been proven 
to enhance law enforcement efforts across the country and will serve to 
greatly enhance Olympic public safety and security operations. Again, 
the FBI has requested Top Secret clearances for all members of the 
OJTTF to better facilitate this joint working environment.

               Command Post and Field Training Exercises:

    Other than the military, perhaps no other public entity understands 
as well as law enforcement the profound impact and absolute necessity 
of quality training. Moving from the conceptual stages of Olympic 
public safety and security planning to operational readiness demands 
that all plans be tested in concert in an effort to identify areas that 
may need to be revised or enhanced. In November 2000, the FBI in close 
coordination with UOPSC invited all Olympic public safety planners to 
participate in a Command Post Exercise (CPX) designed primarily to test 
interagency communications and information flow in a limited 
nonoperational setting. This exercise was prefaced by initial training 
by all agencies on advanced information systems that will be utilized 
during the games.
    In April 2001, after analyzing lessons learned in November and 
improving the plan, a full scale Field Training Exercise (FTX) was 
again jointly hosted by the FBI and all members of UOPSC. This 
exercise, involving more than 1,600 persons over a threeday period, 
tested all aspects of the Olympic public safety and security plan. 
Unlike the CPX, the FTX not only tested concepts and theoretical 
procedures, it fully exercised actual physical responses to threats and 
staged incidents as may occur during the games. This afforded all 
participating agency personnel the opportunity to fulfill their role in 
the overall plan simultaneously. Tactical teams exercised strategic 
assaults while investigators gathered evidence and processed crime 
scenes. Crisis management specialists coordinated with consequence 
management officials to first control, then manage, then mitigate the 
effects of a major hazardous materials incident. Federal venue security 
designers and local venue commanders worked together to manage a wide 
variety of incidents occurring at actual Olympic venues. And, as in 
November, the FTX afforded personnel from all agencies the opportunity 
to further refine their skills on Olympic information systems which 
provide the backbone for interagency communication during the Games. 
Continuing to provide quality training, the Salt Lake City Division 
will be hosting a weapons of mass destruction conference in Salt Lake 
City in June and is contemplating hosting another command post exercise 
in the fall of this year.

                                Closing:

    In closing, I would like to express my sincere appreciation for the 
support afforded by this committee to the FBI and all law enforcement 
agencies engaged in the partnership that is Olympic public safety and 
security planning. I would also like to express my appreciation and 
admiration of the professionalism which law enforcement and public 
safety personnel at all levels have demonstrated throughout this 
process. With 253 days remaining before the Olympic flame enters the 
stadium, I believe we are already realizing one of the greatest 
benefits of the Games: the ability to bring people together; in this 
case the ability for law enforcement agencies in Utah and across the 
nation to exponentially magnify their effectiveness by working 
together. I am confident that all agencies join me in hoping that our 
first great dividend of this ability will be a safe and secure XIX 
Olympiad.

    Senator Hatch. We'll turn to Kathryn Condon, Special 
Assistant for Military Support, Office of the Secretary of the 
Army.

  STATEMENT OF KATHRYN CONDON, SPECIAL ASSISTANT FOR MILITARY 
 SUPPORT, OFFICE OF THE SECRETARY OF THE ARMY, WASHINGTON, D.C.

    Ms. Condon. On behalf of the Department of Defense, I am 
pleased to provide for the record the following information on 
DoD support to the 2002 Winter Olympic and Paralympic Games in 
Salt Lake City, Utah.
    DoD assists Federal, state or local agencies in support of 
civilian sporting events under the authority of 10 U.S.C. 
Section 2564, if the attorney general certifies that such 
assistance is necessary to meet essential security and safety 
needs. DoD may also provide reimbursable assistance in support 
of other needs relating to such events.
    In all instances, DoD supports three lead Federal agencies: 
the U.S. Secret Service for protection of the sporting and non-
sporting venues, the Federal Bureau of Investigation for 
overall crisis response, and the Federal Emergency Management 
Agency for consequence management.
    For the 2002 Olympics, the Attorney General certified 
aviation, communications, explosive ordinance disposal, 
physical security, and temporary facilities as categories of 
support that are essential to security and public safety of the 
Winter Olympics.
    Subsequently, the Secretary of the Army, on behalf of the 
Secretary of Defense, approved aviation support for the 
deployment of local emergency teams, communications for law 
enforcement and public safety, EOD support (including bomb 
dogs), physical security equipment and temporary facilities for 
command and control and operational purposes.
    The DoD structure established to implement support extends 
from senior DoD leadership to operational elements. Officials 
in the Office of the Secretary of Defense and the Secretary of 
the Army are actively overseeing DoD support.
    To implement routine DoD support for the Games, the United 
States Commander-in-Chief Joint Forces Command, the commander 
responsible for executing DoD support, established Joint Task 
Force Olympics in Salt Lake City, Utah, in January 2001.
    Brigadier General James D. Johnson, a member of the Utah 
Army National Guard, commands the JTF-0. JTF-O will have 
representation from all services and components with the Utah 
National Guard as the primary source of military personnel. The 
Utah Air and Army National Guard have the advantage of 
proximity and provide the most cost effective means for DoD to 
meet its staffing requirements in Salt Lake City. The JTF-O 
provides Utah Olympic Public Safety Command and Salt Lake 
Organizing Committee with a single point of entry for all 
requests for DoD support and will coordinate approved support.
    Integral to the overall support of the games are the 
personnel and facilities of the Utah National Guard under the 
command of Major General Brian Tarbet, as well as those of 
other DoD installations in the area, to include Tooele Army 
Depot, Dugway Proving Grounds, Hill Air Force Base, and the 
96th Regional Support Command at Fort Douglas.
    Funding for the Olympics and Paralympics comes from a 
specific, no year appropriation, the Support for International 
Sporting Competitions, Defense Appropriation or SISC, 
established by Public Law 104-208, section 5802.
    As of today, funding is in place only for currently 
approved 2002 Winter Olympics and Paralympics requirements. 
However, if new requirements are identified for the fiscal year 
2002 Winter Olympics and Paralympics, we will likely require 
additional funds be appropriated to the SISC account.
    DoD is actively supporting the Olympics and Paralympics in 
a variety of other ways, to include: an enhancement to Utah's 
communications infrastructure; assistance to law enforcement in 
physical security planning and the conduct of contingency 
exercises and ceremonial support.
    DoD will ensure that our involvement in the Olympics and 
Paralympics is appropriate and sufficient for public safety and 
security. We share in the commitment of other Federal, state 
and local agencies to promote a safe and successful event.
    Thank you for the opportunity to appear here today. I am 
pleased to answer any questions you may have regarding DoD 
support to the games.
    Senator Hatch. Thank you, we're glad to have you here. 
We'll now turn to the U.S. Attorney, Paul Warner. Larry, while 
you are here I want you to get well acquainted with him. He's 
one of the best.
    Mr. Thompson. We had a nice breakfast this morning.
    Senator Hatch. Go ahead.

   STATEMENT OF PAUL WARNER, UNITED STATES ATTORNEY FOR THE 
             DISTRICT OF UTAH, SALT LAKE CITY, UTAH

    Mr. Warner. Mr. Chairman, thank you for inviting me to 
testify today. I have great respect for you and also the 
individuals and agencies represented by the panel here today. I 
consider it a particular honor to be here.
    As the United States Attorney for the District of Utah, I 
am keenly aware of the public safety challenges the 2002 
Olympic and Paralympic Winter Games pose for the State of Utah 
and the nation.
    When I became United States Attorney in August 1998, I knew 
one of my first and most important responsibilities would be to 
make sure the Games received the Federal support necessary to 
safeguard the event and protect the 2.2 million people living 
in the District.
    I also knew the strain the Games would place on law 
enforcement and public safety would be great and that 
coordination between Federal, state and local law enforcement 
agencies, while strong, would be put to its toughest test.
    Olympic Games are huge undertakings. They make tremendous 
demands on the communities chosen to host them. The potential 
effect of the Games on the country's prestige is a major 
concern when the Games are staged in the United States.
    As a result, whether or not it had much to do with bidding 
for or securing the Games for the host city, and in one of the 
grandest natural settings anywhere, to have every chance to 
realize their Olympic dreams. Each competitor must be secure 
and safe so that no energy or attention is wasted on concern 
for his or her safety and well being.
    I am confident that such will be the case, because our 
state, local and Federal law enforcement and public safety 
agencies and authorities are working well together, quietly and 
competently to provide that environment.
    Competitors work for years to bring their ``A'' games to 
the Olympics. The Utah Olympic Public Safety Command has worked 
hard and well for the last 3 years so it can bring the State's 
``A'' game to making them safe. We approach the Games with the 
same confidence the best competitors will have when they come 
to Utah in 2002.
    I have the highest regard and praise for the job 
Commissioner Flowers and Dave Tubbs have done and for the 
people who work each day at the Utah Olympic Public Safety 
Command, at the organizing Committee, and in the community to 
make it happen. They do their work quietly and without notice 
or reward, other than the reward they get from the satisfaction 
of knowing they are involved in a unique and worthwhile event 
and are doing a terrific job.
    As the United States Attorney, I am pledged to continue to 
do all I can, all that is within my authority and jurisdiction 
to do, to make the 2002 Olympic and Paralympic Winter Games 
safe and successful.
    Mr. Chairman, that concludes my prepared remarks. I would 
be happy to answer any questions you may have at this time.
    [The prepared statement of Mr. Warner follows:]

STATEMENT OF PAUL M. WARNER, UNITED STATES ATTORNEY, DISTRICT OF UTAH, 
                         DEPARTMENT OF JUSTICE

                              Introduction

    Good morning Mr. Chairman. I am delighted to appear before you 
today. As the United States Attorney for the District of Utah, I am 
keenly aware of the public safety challenges the 2002 Olympic and 
Paralympic Winter Games pose for the State of Utah and the Nation. When 
I became United States Attorney in August 1998, I knew one of my first 
and most important responsibilities would be to make sure the Games 
received the federal support necessary to safeguard the event and 
protect the 2.2 million people living in the District. I also knew the 
strain the Games would place on law enforcement and public safety would 
be great and that coordination between federal, state and local law 
enforcement agencies, while strong, would be put to its toughest test.
    Olympic Games are huge undertakings. They make tremendous demands 
on the communities chosen to host them. The potential effect of the 
Games on the country's prestige is a major concern when the Games are 
staged in the United States. As a result, whether or not it had much to 
do with bidding for or securing the Games for the host city, once the 
Games are awarded the national government is drawn into public safety 
and law enforcement roles that involve not only supporting and 
subsidizing local law enforcement in connection with the Games, but 
also providing expensive support for core federal responsibilities, 
some that are uniquely related to the Games and others that are simply 
greater because of the Games. The federal commitment of money, people, 
time and energy is extraordinary. The cost to the federal government is 
considerable and can neither be ignored nor displaced.
    When I became the chief federal law enforcement officer in the 
District of Utah, I eagerly accepted my share of responsibility for 
ensuring that what is done to protect federal interests and to make the 
Games safe is done economically, responsibly, and within the recognized 
authority and jurisdiction of the agencies called upon to assist. It is 
essential to do things right and do them well with regard to the Games.
    After examining the role the United States Attorney played in 
getting Atlanta ready for the 1996 Summer Olympics, I became convinced 
that my office should become actively engaged in helping law 
enforcement and public safety prepare for the 2002 Olympic and 
Paralympic Winter Games. In the remaining portions of my testimony I 
briefly summarize the contributions of the United States Attorney's 
Office for the District of Utah to law enforcement preparations for the 
2002 Games.

                    District LECC Olympic Initiative

    The District of Utah has a very good Law Enforcement Coordinating 
Committee or LECC. The District has an especially effective and well 
respected, and I add, overworked, LECC Coordinator in Melody Rydalch. 
Our LECC has functioned for many years as an effective way to 
coordinate state, local and federal law enforcement planning. I am 
proud of our LECC. It has been a vehicle for bringing together law 
enforcement leaders from all over Utah to consider issues of mutual 
importance and concern, and it has been used as a conduit for providing 
training opportunities for local and state law enforcement officers and 
agents, enabling them to receive instruction alongside their federal 
counterparts. Together, we have used the District LECC to vet important 
policy matters in order to encourage improvement and achieve uniformity 
in the use of law enforcement resources on common problems. For 
example, the District LECC has done important work on issues such as 
hate crime. In May 1999, the District LECC cosponsored a ground 
breaking Hate Crime Conference that has been a model for such 
conferences in other districts around the country. I know, Senator 
Hatch, that you are aware of this program and its success. The LECC has 
also taken critical law enforcement training and equipment to the 
Native American reservations in the State of Utah.
    In November 1999, with the encouragement and support of the 
Department of Justice, I created the District LECC Olympic Initiative 
to help focus the District's and the Department's resources and energy 
on Olympic public safety. It made sense to use the LECC, an established 
and respected part of the law enforcement culture of the District, to 
help the Utah Olympic Public Safety Command and federal law enforcement 
agencies get the resources and assistance they need to prepare for the 
Games.
    The United States Attorney, through the District Olympic 
Initiative, has provided assistance to the Command and the federal law 
enforcement agencies involved in planning and operations related to the 
Games in the form of surplus equipment, travel assistance for local 
officers, training opportunities for local officers, and liaison with 
the Office of Special Events at the Department of Justice.
    For the most part, law enforcement relations in Utah are very 
healthy. We are committed to doing all we can to ensure they are even 
better in the District of Utah when the Games are over than they are 
now. The 2002 Games are a unique opportunity to build on existing 
federal, state and local relationships. The Games provide an incentive 
to rethink, modernize and make improvements in our methods, techniques 
and doctrines that will benefit law enforcement and the community for 
years beyond the Games. The District LECC Olympic Initiative is an 
ideal way to help that happen.
    In November 1999, the amount of work that was being done in 
connection with the Olympic Initiative justified sending a senior 
Assistant United States Attorney to the Utah Olympic Public Safety 
Command to work on Olympic issues as a full-time LECC assignment. This 
was done with the encouragement and approval of the Department of 
Justice and the Executive Office for United States Attorneys. The 
arrangement has been a success for the District, the Department and the 
Utah Olympic Public Safety Command.
    The senior Assistant United States Attorney who works with the Utah 
Olympic Public Safety Command represents the United States Attorney and 
the Department of Justice in local matters involving federal support to 
law enforcement and public safety in connection with the Games. He 
works closely with the Department of Justice's Office of Special Events 
to ensure that local and national concerns regarding such support are 
addressed promptly and appropriately. He serves as one of the directors 
of the Command. His duties include supervision and management of 
communications support planning, intelligence planning and operations, 
legal affairs/criminal justice planning and operations, infrastructure 
protection planning, and providing advice and counsel to the Executive 
Director of the Command. He works side-by-side, and day-in-day-out, 
with his state, local and federal counterparts in law enforcement and 
emergency services laying the ground work for delivering law 
enforcement and public safety services in connection with the Games in 
2002.
    Funding figures for the United States Attorney's Office include the 
cost of the salary and benefits for the senior Assistant United States 
Attorney, as well as funding for a backfill position for that attorney, 
and funding for a second LECC coordinator in the District who will help 
Ms. Rydalch handle growing Olympic related responsibilities as the 
Games approach. Also included is funding for travel, equipment, the 
production of materials that are part of the legal and criminal justice 
plan for the Games, including an Olympic Legal Affairs Handbook that 
standardizes prosecution guidelines and strategies and organizes 
criminal justice operations for the Games, and sponsorship of 
conferences on issues related to law enforcement planning and 
operations for the Games.
    By the time the Games begin, the United States Attorney's Office 
for the District of Utah will have received approximately $849,000 for 
the District LECC Olympic Initiative; that is $6,000 in FY1998; $80,000 
in FY1999; $149,000 in FY2000; $373,000 in FY2001; and an anticipated 
$241,000 in FY2002. [Analytical Perspectives, Budget of the United 
States Government, Fiscal Year 2002, pg. 435.] I believe any investment 
the Department of Justice and the United States Attorney's Office make 
in the Games will deliver great returns.

                                Summary

    The Olympic Games are not law enforcement events. They must not be 
allowed to become law enforcement events either by misadventure or 
design. The Games are, more than anything else, a celebration of human 
achievement and the human spirit. They are about the best in human 
experience. They are about excellence. They have the potential for 
touching each one of us in the most positive way imaginable. The Games 
can bring out the best in each of us. They have already done that in 
the case of law enforcement and public safety in the District of Utah.
    The role of law enforcement and public safety in connection with 
the Games is to help create an environment in the community and the 
Nation during the Games that allows the people of Utah, as well as 
those who come to Utah to compete, officiate, support or run 
competitions, and those who visit to observe or simply to be near the 
event, to have complete confidence that they will be safe and secure 
while they are in Utah for the Games. They should not have to give a 
second thought to their well being during the Games.
    The environment must make it possible for the men and women who 
come to Utah to compete in the finest facilities of their kind in the 
world, on the best snow in the world, and in one of the grandest 
natural settings anywhere, to have every chance to realize their 
Olympic dreams. Each competitor must be secure and safe so that no 
energy or attention is wasted on concern for his or her safety and 
well-being. I am confident that such will be the case, because our 
state, local and federal law enforcement and public safety agencies and 
authorities are working well together, quietly and competently to 
provide that environment.
    Competitors work for years to bring their ``A'' games to the 
Olympics. The Utah Olympic Public Safety Command has worked hard and 
well for the last three years so it can bring the State's ``A'' game to 
making them safe. We approach the Games with the same confidence the 
best competitors will have when they come to Utah in 2002.
    I have the highest regard and praise for the job Commissioner 
Flowers and Dave Tubbs have done and for the people who work each day 
at the Utah Olympic Public Safety Command, at the Organizing Committee, 
and in the community to make it happen. They do their work quietly and 
without notice or reward, other than the reward they get from the 
satisfaction of knowing they are involved in a unique and worthwhile 
event and are doing a terrific job.
    As the United States Attorney, I am pledged to continue to do all I 
can, all that is within my authority and jurisdiction to do, to make 
the 2002 Olympic and Paralympic Winter Games safe and successful.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to answer any questions you may have at this time.

    Senator Hatch. Thank you. Lane Beattie, State Olympic 
Officer for the State of Utah.

STATEMENT OF LANE BEATTIE, STATE OLYMPIC OFFICER FOR THE STATE 
                 OF UTAH, SALT LAKES CITY, UTAH

    Mr. Beattie. Thank you very much, Mr. Chairman. And if I 
may, as I have gotten to know you, Senator Hatch, it's a 
pleasure to be asked to be here and represent the State of Utah 
on behalf of the Governor I wish to welcome you again and those 
that are here to testify.
    On behalf of the State of Utah, I appreciate the 
willingness to be of assistance to the 2002 Olympic Winter 
games and what they represent, not only to the State of Utah, 
and the United States, but the world. It's a wonderful ongoing 
effort to bring the world together to promote peace, and 
encourages unsurpassed any other event that we have.
    In addition to my written testimony, I'm also submitting a 
State of Utah annual report of the State Olympic Officer, a 
report that I officially released last November which will give 
you a greater insight to both budgetary as well as further 
preparations of the overall Salt Lake Olympic games.
    This is an overview of the preliminary impact on the State 
of Utah, I feel there are both Federal agencies as well as 
state agencies understand the importance of coming together in 
critical areas.
    This last year has been extremely busy. As we moved to the 
last few months of preparation, Federal assistance has been 
extremely important in our overall planning. If I could I'd 
like to just make mention of three individuals that I feel 
played a very key role in our preparation as a state. They are 
all Federal people. First, Mark Cunello who is the Olympic 
coordinator from Secret Service, Don Johnson, who is the FBI 
special agent in charge of the Salt Lake City division, and 
Pete McCursky of FEMA regional director of an operation center. 
All three of these people, I feel, deserve to be acknowledged 
for their devotion to making sure that we are better prepared 
as a state.
    Senator Hatch. I agree with that.
    Mr. Beattie. There are other people also that I feel have 
played key roles in helping us to be prepared. Our current 
commissioner of public safety, Robert Flowers, has been a key 
player in making sure that not only do Federal agencies come 
together, but I hope that you understand the critical nature in 
bringing state agencies together.
    Unlike Sydney where we had one public safety commander over 
all of New South Wales, our struggle seems to be somewhat more 
difficult. We have to bring many agency heads, many different 
chiefs of police together into one entity. And may I compliment 
all of them in doing so in an extremely fine manner.
    The strongest part of our preparation has been the 
cooperation of our local law enforcement officers and agencies, 
their willingness to come together and share their expertise 
will be a significant reason for the success of our security 
operation.
    I also would like to mention that Chief Dinse also from 
Salt Lake City and his great devotion to this process as he is 
a current deputy director.
    In addition to public safety, it should also be mentioned 
here the vast number of people involved in our emergency 
preparedness, not only is it important to have public safety on 
line, but as we talk about our fire and EMT's and the many 
ambulance services throughout the state. Within the State of 
Utah many of them are private entities unto themselves, are 
very critical in the overall preparation.
    This past spring along with over a hundred other members 
from the State of Utah of UOPSC, we participated in the 
national disaster training program in Emmitsburg, Maryland for 
a specific developed program on security. I want you to know 
that I had an opportunity to attend and I was richly and 
greatly benefited from being there.
    The management of SLOC is also an area of great comfort to 
me. I don't think that when I was asked to take this role over 
less than a year ago, I want you to know that I also had some 
deep concerns. One of them was my lack of understanding of the 
complexity of the international situation of the Olympics.
    I want you to know of my great comfort both in what has 
been done in the last year, and what is being done in the next 
8 months, specifically Mitt Romney, and Frasier Bolum and 
another person who has brought a great deal of ability to this 
is Cindy Gillespie. The experience she had in the Atlanta games 
and also her assistance in working with your offices as well as 
ours have done a great deal in bringing the security that we 
feel is necessary to the State of Utah.
    Again, I must show my appreciation for the Federal support 
that we have received and key factor that will play when the 
United States and the state of Utah will host the world in the 
2002 Winter Games.
    The greatest assets that we have in the state of Utah as 
you are well aware, are truly not all of those that serve us 
but indeed those to whom we serve and that is the citizens of 
the State of Utah.
    I am very proud to be able to report to you, Senator Hatch, 
the State of Utah has set every record of venue Olympics that 
has been ever been held in the number of tickets that have been 
sold to individuals within the jurisdiction and within the 
State of Utah. It's also unsurpassed in the percentage of 
people who want to participate in this great Games.
    I'd also be amiss if I didn't mention the wonderful 
volunteers that we will rely on throughout the Olympic games. 
We need over 26,000 people to assist in this wonderful event. 
As of today, we have over 64,000 people.
    Senator Hatch. That makes all of us feel really proud.
    Mr. Beattie. It says a great deal about Utah. Last and 
certainly not least, is the Utah legislature. That is certainly 
not something to get emotional about.
    Senator Hatch. I was wondering about that myself. You did 
it for us, I'll tell you.
    Mr. Beattie. Twelve years of my life have been associated 
with that wonderful group of men and they deserve a great deal 
of accolades. They have come forward in an unprecedented way to 
help support what we feel is a wonderful opportunity to display 
who we are in the State of Utah. In their behalf, I'd also like 
to say thank you.
    Senator Hatch. Same here. We can do more, though, I want 
you to know. Thank you, Lane.
    [The prepared statement of Mr. Beattie follows:]
    [An attachment is being retained in the Committees files.]

 STATEMENT OF LANE BEATTIE, STATE OLYMPIC OFFICER, SALT LAKE CITY, UTAH

    Dear Chairman Hatch and Members of the U.S. Senate Judiciary 
Committee:
    Thank you for this opportunity to testify before your Committee. On 
behalf of the State of Utah, I appreciate your willingness to be of 
assistance to the 2002 Olympic Winter Games and what they represent, 
not only to Utah and the United States but to the world. This wonderful 
ongoing effort to bring the world together to promote peace and unity 
is truly unsurpassed in any other event.
    In addition to my written testimony, I am submitting a State of 
Utah Annual Report of the State Olympic Officer Relating to the State 
Budget Impacts from the 2002 Olympic Winter Games, that was released in 
November 2000. While this is an overview of the Olympic impact to the 
State of Utah, it will also help to understand the importance of 
Federal involvement in the Olympic efforts.
    This last year has been extremely busy as we move to the last few 
months of preparation. The federal assistance has been extremely 
important in our overall planning and development of public safety. 
Mark A. Camillo, Olympic Coordinator Secret Service, Don Johnson, FBI 
Special Agent in Charge of the Salt Lake City Division and Pete 
Bakersky, FEMA Director of Region 8, Operation Center are three people 
that I must acknowledge. Their cooperation and assistance has been 
professional and very helpful.
    David Tubbs as our director of the Utah Olympic Public Safety 
Command (UOPSC) and past FBI agent has brought to our planning and 
preparation program critical insight and expertise. The strongest part 
of our preparation has been the cooperation of our local law 
enforcement agencies with our state and federal agencies. Their 
willingness to come together and share their expertise will be a 
significant reason for the success of our security operation.
    This past spring, along with over one-hundred UOPSC members, we 
participated in the National Disaster Training Program in Emitsburg, 
Maryland for a specifically developed program on security. I 
participated in the training program and was greatly benefitted.
    The management of SLOC is also an area of great comfort. While they 
do not have direct responsibilities for public safety their assistance 
has been immeasurable.
    I again must share my appreciation for the federal support that we 
have received and the key factor that it will play when the United 
States and the State of Utah host the world at the 2002 Olympic Winter 
Games.

    Senator Hatch. We'll now call David Tubbs, Director of the 
Utah Public Safety Command. I feel very fortunate that you are 
willing to take the position and assist us here. It means a lot 
to all of us, Mr. Tubbs.

  STATEMENT OF DAVID TUBBS, EXECUTIVE DIRECTOR, UTAH OLYMPIC 
          PUBLIC SAFETY COMMAND, SALT LAKE CITY, UTAH

    Mr. Tubbs. I appreciate, as I know everybody else does at 
the table the opportunity to be here and explain the importance 
and how we actually are working together with state, local and 
Federal authorities and how effective it's been.
    The development and successful operation of public safety 
for the 2002 Olympic games in Salt Lake City and Utah requires 
the integration of numerous disciplines. Public safety is not 
law enforcement alone. The involvement of fire, emergency 
medical services, emergency management, military, and public 
works is essential for the safe and successful completion of 
this immense task.
    Governor Leavitt and the Utah State Legislature recognized 
the need for this integration of resources and in 1998 passed a 
state statute establishing Utah Olympic Public Safety 
Committee. Representatives from the venue jurisdictions of the 
above mentioned areas. Commander is Robert L. Flowers, Utah 
Commission of Public Safety, Salt Lake City Chief of Police 
Rick Dinse as vice commander.
    In addition, through statute and also vote of command 
members the Federal Bureau of Investigation, U. S. Secret Force 
and Bureau of Alcohol, Tobacco and Firearms are active voting 
members. Salt Lake Organizing Committee also has a 
representative on the command which opens communication between 
it and public safety agencies to ensure the commands needs 
coincides with the needs of the organizing committee.
    Utah Departments of Transportation and Health work closely 
with the command and this provides us with the complete scope 
of public safety. The formation of the command forced members 
to look at things in the macro sense rather than only how it 
affects the individual jurisdictions. Each and every member 
must still look to the needs of the community or agency. But 
the member must also see how these fit into the structure as a 
whole.
    During the preparation process for the games, over 25 
committees were formed to develop procedures in specific areas. 
The committees range from accreditation of people who need 
access to controlled areas to developing a public safety plan 
for the operation of the Village. The committees have members 
from all operational areas and include representatives of the 
Federal law enforcement agencies and the U. S. Attorney's 
Office.
    To illustrate how successful the cooperative effort has 
become, some of the committees are coordinated by members of 
Federal agencies. The partnership of state, local and Federal 
agencies is the only way effective procedures for public safety 
could be established.
    The primary Federal agencies, the U.S. Secret Service, the 
FBI and Federal Emergency Management Agency have specific 
obligations through Federal statutes and Presidential Decision 
Directives.
    The ability of state and local agencies to learn and 
understand these Federal duties through the command has enabled 
the Utah authorities to see how all parts of the plan can fit 
together.
    The Secret Service's role in security management, the FBI's 
in crisis management and FEMA's in consequence management are 
essential pieces of the public safety preparations.
    The Department of Defense through the Department of the 
Army, the Joint Forces Command, the Joint Task Force and the 
National Guard is working with the command to provide services 
and equipment that would be extremely difficult to obtain or 
cost prohibitive.
    All requests for military assistance go through a vetting 
process in Salt Lake City that has a Committee consisting of 
the Secret Service, the FBI and FEMA. This process is used to 
reach decisions on what is appropriate to ask of the military 
based on legislation passed by the U. S. Congress after the 
Atlanta Olympics.
    The work of all the committees is now coming together to be 
operational for the Olympics. The cooperative spirit developed 
over the past few years has made it easier to work out 
professional differences that occasionally occur. All agencies 
are now training together and conducting exercises that will 
make us better prepared for the task that lies ahead.
    In closing, I would like to say the Olympic spirit and 
public safety effort have gone beyond the jurisdictions 
directly affected by the Games. Non-venue Utah city and county 
officials, police chiefs and sheriffs have come forward with 
police and sheriff personnel to assist in the command plan. 
Hundreds of law enforcement and fire and emergency medical 
services personnel from throughout the United States have 
volunteered to work the Games. This shows that in the public 
safety area, the 2002 Winter Games are truly Salt Lake City's, 
Utah's and America's. Thanks.
    Senator Hatch. Thank you, sir. Mr. Romney, would you like 
to sum up here?

    STATEMENT OF MITT ROMNEY, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, SALT LAKE CITY ORGANIZING COMMITTEE, SALT LAKE CITY, 
                              UTAH

    Mr. Romney. Thank you, Mr. Chairman, I would say that given 
the fact that my remarks are going to be in the record 
hopefully both the introductory remarks as well I'll be very 
brief here.
    Clearly coming on board here it was very obvious to me and 
the rest of the team that there was no higher priority than 
assuring public safety. I was briefed extensively on the 
experience in Atlanta and recognize that there was some 
jurisdictional issues and other squabbles that got in the way 
there.
    It was important to find a way that we would not have those 
issues here. The Utah legislature and the Federal Government 
came together, the creation of UOPSC the way this group has 
worked together has, in my view, assured that we can have both 
effective and collaborative efforts to assure the public 
safety.
    There have been several elements of the hallmark of that 
effort. First, we recognize absolutely clearly that we are not 
in charge of public safety. This is the role of these agencies 
that sit around us in this room. We are the beneficiary of 
public safety. We in no way direct it.
    Second, we have recognized the importance of working 
together with UOPSC and these agencies to assure that our 
operational plans for the games are fully integrated with the 
public safety plans for the Games.
    Third, we recognize that it's important that as we look at 
the entire public safety responsibilities, that we focus on the 
areas that each of us can provide in a distinct manner and in 
the most effective manner. SLOC was provided volunteers. We 
don't need to have special trained officers and other agencies 
are able to provide the resources where they have the 
particular skill that's necessary.
    Finally, I'd note we've all come together to provide the 
necessary financial resources to make sure that the entire plan 
can be implemented an effective way. I would note that day 
after day, I look around me in my office and am overwhelmed by 
the talent of the people that work with.
    I have met now with literally tens of thousands of our 
volunteers and I'm overwhelmed with the energy and passion of 
that group. As I sit here and I have worked with almost--well 
every agency here, not always every individual, but many 
individuals from the many agencies here, I'm likewise 
overwhelmed with the capability of commitment of these people.
    I sometimes am fearful that a person will stand up and 
point at me and a curt British accent say ``You are the weakest 
link.'' But this is a remarkable group that comes together in 
many respects, unprecedented and I believe is a model for 
effective management of public safety matters and I'm pleased 
to be a small part of it. And even more pleased to be a 
beneficiary of such a superb team. Thank you, Mr. Chairman.
    [The prepared statements of Mr. Romney follow:]

 STATEMENT OF MITT ROMNEY, PRESIDENT AND CHIEF EXECUTIVE OFFICER, SALT 
                       LAKE ORGANIZING COMMITTEE

    Thank you, Mr. Chairman, for giving me the chance to address you 
today. As these hearings are being held, countries around the world are 
actively competing for the opportunity to host the Games of 2008. 
Turkey and Japan have reportedly fallen behind the bids of China, 
Canada and France. The lengths to which these countries' efforts are 
taken can be illustrated by reports concerning the Beijing bid: to 
impress the visiting committee from the International Olympic 
Committee, the IOC. Taxi drivers were schooled in phrases that would 
compliment their country, heat and power use were clamped to reduce 
emissions, and the grass in the city center was painted green. We 
speculate that the effort to win the Games even led to the resolution 
of the U.S. reconnaissance plane crisis.
    With recent experience as a guide, more and more countries will 
stand in line for the opportunity to spend millions of dollars to bid 
for the Olympics and billions of dollars to host them. The reasons for 
such spending and such competition are many and varied. First, I 
suppose that governments have expectations of economic payback. Olympic 
spending is seen as an investment with large, enduring economic 
returns. Sydney estimates that direct spending by Olympic visitors and 
indirect benefits from tourists which visit the country later as a 
result of the impression it left during the Games will generate many 
times what has been invested.
    In my view, there is an even greater economic implication that 
attaches to holding the Games than direct or indirect tourism dollars. 
To a significant extent, a community and a country are branded by their 
hosting of the Olympics. Much like the image or branding of consumer 
products like Coke-Cola affect our purchase behavior, the branding and 
definition of a country or city affect how it and its products are 
perceived throughout the world. The credibility of its government and 
institutions, the desirability of its products, are influenced by the 
manner in which it managed the Games, either positively or negatively. 
Sydney surely is experiencing a boost in the attractiveness of its 
products and services following the resounding success of the Sydney 
Games. Our entire nation likewise basked in the glow from the 1984 Los 
Angeles Olympics. Munich's image suffered with the tragedy it could not 
avoid. Atlanta's result was somewhat mixed: it rose in world visibility 
but was characterized to a certain extent by failings in computer 
systems, transportation and security. And in 2002, Salt Lake City and 
the United States will be branded in some measure by how well we host 
the Olympic Winter Games.
    Why is it the Olympics are so defining? Because some 3 billion 
people will watch our Opening Ceremonies, and they will keep watching 
for 17 days. That's about half the world's population. And, some 10,000 
members of the media will be here to cover the Games.
    Understandably, host countries spend prodigious sums to produce the 
Games that will showcase them to the world. With Summer Games having 
more sports and athletes, their total budget will be larger than that 
for Winter Games. But larger TV and ticket benefits for Summer Games 
will more than offset the greater total cost: Winter Games can be more 
expensive for the organizer's governments and sponsors. This graph 
displays the total budget for the last several Olympic Games. Even 
excluding the cost of security and transportation, which are provided 
by governments, the Games' operating and capital budgets total in the 
billions of dollars. With the exception of Games held in the United 
States, most of this amount is contributed by the city, state, or 
federal governments. In the U.S., the entire Game's budget is privately 
financed. In other words, the entire $2.05 billion for Atlanta came 
from private sources. But for Atlanta, as for the other Games, the 
government did provide security and transportation services, and they 
were extensive.
    You will note that Sydney had more than two times the funds as 
Atlanta to produce their Olympic Games. It did not come as a surprise 
to me that Sydney came off so well. Let's look at Salt Lake's budget in 
comparison to the other Winter Games. You'll note that we'll spend 
about a billion dollars less than either Nagano or Lillehammer. By 
necessity, we will not be as impressive or spectacular. We believe that 
the warmth and hospitality of our volunteers and community, however, 
will bring a passion and heart to the Olympics that will be warmly 
remembered.
    If present trends continue, the budget for hosting Olympics will 
continue to rise as more sports, more athletes, and more information 
technology are added. I wonder whether the U.S. model, with only 
private funding for the Game's operating and capital budget, will in 
the future allow us to adequately present our country to the world.
    While Atlanta's and Salt Lake's total operating and capital budgets 
are privately funded, the federal government does contribute extensive 
services, costing it hundreds of billions of dollars, in support of the 
Olympic Games. The President's budget estimates that approximately $360 
million will have been spent by the Federal government to support the 
2002 Games. In addition, another $80 million has been made available 
for roads and highways directly associated with the Olympics, bringing 
the federal total to approximately $440 million. The largest figures 
are associated with public safety, highways and transportation, but a 
host of other functions are involved, including special visa access for 
Olympic participants, customs processing of Olympic goods, broadcast 
coordination, communications, as well as many others. Without question, 
we simply could not host Games in Salt Lake if it were not for the 
enormous spending and services of the Federal government.
    When I came to the Games two years ago, following the revelations 
of bid impropriety, there was nothing which caused greater anxiety than 
whether or not we could count on this critical Federal support. While 
we presumed that the services that had been provided for Atlanta would 
also be provided for Salt Lake, there could be no certainty of that 
outcome. Some in Washington argued that the Olympics was a pork-barrel 
project. We owe a great debt of gratitude to our entire Utah 
delegation, including Chairman Hatch and Senator Bennett, Congressmen 
Hansen, Cannon, Matheson and former Congressman Cook. During these 
years, we were supported in the Senate by Senator Stevens, Senator 
Byrd, Senator Shelby, Senator Lautenberg, Senator Gregg, Senator 
Hollings, Senator Specter, Senator Kennedy, and Senator Campbell. 
Chairman Young, Congressman Wolfe, Congressman Shuster, Congressman 
Lewis, Congressman Walsh and numerous others supported us in the House. 
I must also thank the Clinton and Bush Administrations who have been 
involved with our planning efforts every step of the way. I would add 
that it has been a particular help to have President Bush specifically 
include Olympic items in the budget he has submitted to Congress. 
Finally, Salt Lake has been fortunate indeed to have an individual lead 
our Federal Relations effort who has institutional memory of the 
Atlanta experience, respect from governmental leaders, and remarkable 
persistence and skill: Cindy Gillespie is an incredible asset for the 
Olympics and for our country.
    I would hope that in the future, the support of the Federal 
government would be much more clear prior to having a U.S. city agree 
to host the Olympics. Even today, U.S. cities are preparing their bids 
for the Games of 2012 without full confidence and understanding of the 
Federal role and level of support. While what is expected from 
government agencies falls within their statutory authority and roles, 
the authorization and appropriations processes for agency funding of 
such large and intermittent projects as the Olympics are unclear and 
uncertain.
    I would note as well that it strikes me as strange that cities may 
bid and be selected to host the Olympics with little consideration 
being given to the required levels of Federal support which may be 
entailed. Transportation and security requirements, for example, may 
vary dramatically for different bid cities, but there is not a careful 
comparison made of such requirements prior to selecting the lead U.S. 
candidate. It may simply be assumed that the government will step up.
    Finally, let me note that in my view the most important reasons for 
hosting the Olympic Games have nothing whatsoever to do with economics, 
tourism, budgets, and spending. I believe that the Olympics is the most 
powerful demonstration of peace on the world stage. It is a showcase of 
great qualities of the human spirit, qualities which enrich the family 
of mankind. In a nation which spends billions to enforce peace, it is 
right that we make the effort to showcase peace.
    Thank you for your interest and consideration.

                                <F-dash>

   Additional Statement of Mitt Romney, President and CEO, Salt Lake 
                          Organizing Committee

    Mr. Chairman:
    Thank you for the opportunity to present to the Committee a report 
from the Salt Lake Organizing Committee on our involvement and 
coordination with public safety agencies as we prepare to host the 2002 
Winter Olympic Games.
    Before I begin, I would like to ask first that the remarks I made 
at the start of the hearing providing an overview of the challenges 
inherent in hosting the Olympics be inserted into the hearing record.
    I would also like to thank the Chairman, and Senator Bennett, for 
your continuing oversight and support for our Olympic activities in 
Salt Lake. Unfortunately, most people never realize how large and 
complex the Olympics are until they are actually underway. It has been 
clear to me from my first meetings with you and Senator Bennett that 
you are well aware of the enormous challenges we face, and your support 
in that regard has been a key factor in our success to date.
    In the two years since I joined the Salt Lake Organizing Committee, 
there has been no issue that has assumed higher priority and focus 
within the Committee than public safety. Specifically, we have spent 
considerable time at SLOC examining the separate roles of both the 
public and private sector in security and public safety, and developing 
with UOPSC a division of responsibilities that lets each of us do what 
we do best.
    When I joined SLOC, I was briefed extensively on the jurisdictional 
and other squabbles that prevented the Atlanta Olympic organizers from 
working as a team with federal, state and local government on public 
safety. The creation of the Utah Olympic Public Safety Command, and the 
inclusion of SLOC on that Command, was designed specifically to avoid 
those problems. It is my understanding that this designation is quite 
unique--it is the first time that a private sector company has been 
legislatively included in a public safety command--and it is a role we 
take very seriously.
    Our commitment has been to ensure that the UOPSC structure--one of 
coordinated planning and integrated command and control between all 
levels of government and the private sector--becomes the model for 
successful event public safety in the future. To achieve that goal, we 
have put in place the following principles:
    1. SLOC recognizes that public safety is the responsibility of 
government agencies. It seems obvious, but there has consistently been 
a question in past Games about whether the Organizing Committee was in 
some way ``in charge''. We are pleased that the critical role of the 
Games Organizer has been recognized, as evidenced by our inclusion on 
the Command, but we are very aware that our safety-related activities 
are in support of and under the overall direction of government public 
safety agencies.
    Perhaps there has been no more fundamental key to making this 
process work than ensuring that there is only one voice on public 
safety issues--and for these Games, that voice is UOPSC. In the past, 
all the government agencies involved in public safety planning and the 
event organizers each provided separate input to Washington on public 
safety plans and requirements. In our case, as you well know Mr. 
Chairman, we have consistently supported the principle that all 
requests for public safety support must come through UOPSC. This 
ensures requests for funding and other legislative support that come to 
Congress or to the Administration reflect only the actual priority 
requirements of Olympic public safety.
    2. Working with UOPSC, we have sought to integrate public safety 
and Gamesplanning. In order to do this effectively, we asked the lead 
federal agencies--US Secret Service, FBI, and FEMA--to establish their 
Olympic planning elements early, and to put people on the ground here 
in Salt Lake who could become knowledgeable on Olympic operations as 
they prepared public safety plans. The agencies complied with that 
request, and because they have continuously put capable people on the 
planning team, and allowed those people to stay in those positions 
throughout the Games planning time period, we have today a solid team 
working together. We believe this integration will eliminate some of 
the operational problems that occurred at past events when public 
safety decisions were made without taking operations into account.
    Although much focus is frequently given to the extraordinary 
incidents when specialized public safety training comes into play, the 
majority of the public safety work of the Olympics involves very 
traditional law enforcement duties. And it is the performance of these 
traditional duties that literally can make or break the success of an 
Olympics. For example, although the federal and state governments have 
invested hundreds of millions of dollars in developing the 
transportation infrastructure in Salt Lake for the Games, whether or 
not the system works will depend on how well the police manage the 
traffic. This is one of the most critical tasks operationally for 
public safety during the Games, and it is one where integrated 
operations and constant coordination are critical.
    Integration between SLOG and public safety will be accomplished 
during the Olympic Games by directly linking SLOC's Main Operations 
Center with the operations and coordination centers for public safety. 
We will each have personnel based in each other's command centers to 
ensure that communications and integrated decision-making in day-to-day 
operations are the standard. Finally, we are jointly developing the 
procedures and policies for escalation of decisions to ensure that 
public safety and operations both have a voice in crisis situations. A 
joint tabletops and simulations schedule is being developed to address 
this integration in the coming months.
    3. With UOPSC, we took an obiective look at all the duties 
necessary to carry out a public safety plan and divided them between 
SLOC and government based on ``who does what best''. Taking a fresh 
look at all the roles, responsibilities and resource requirements 
allowed us to best use the talents and capabilities of each 
organization. In layman's terms, we decided that we shouldn't waste the 
talents of a law enforcement officer in a position where someone 
without arrest powers would suffice. So, where the duties do not 
require a trained officer, SLOC will be providing a mix of trained 
volunteers and specialized personnel--all operating in a command 
structure that directly coordinates with the Venue Law Enforcement 
Commander. On the other hand, when highly technical skills are 
required--we turned to the agency that is the best at those skills--DoD 
for explosive ordnance detection, FBI for intelligence, or Secret 
Service for site security plans. It seems obvious now, but this 
practical division of responsibilities between the public and private 
sector hasn't been done before. Another example of where our private 
sector capabilities were better used this time is through our sponsors. 
In numerous instances, SLOC has been able to provide critical public 
safety resources--thus relieving the government of an obligation in 
that area. Sensormatic is providing the electronic security for the 
Village--one of the most sensitive resource requirements of the Games. 
Under the direction of US Secret Service, and in coordination with the 
Department of Defense, Sensormatic has developed an excellent system to 
electronically detect intrusion. Another of our suppliers, Garrett, has 
stepped forward to provide the magnetometers that will be used 
throughout the Games. This is a sizable commitment on their part and 
filled a significant resource requirement identified by US Secret 
Service and UOPSC.
    4. We have provided any assistance we could, including direct 
finding, to ensure that the state and local public safety community has 
the resources necessary to carry out the job. Clearly, in order for the 
state and local jurisdictions to allocate the people, equipment and 
other elements necessary for this multi-year planning effort, some 
funding support has been needed. While our communities in Utah have 
provided much planning support directly through their operations, 
funding from the Department of Justice for UOPSC to hire planners and 
do the work necessary to prepare for the Games has been critical. 
Senator Bennett and you have both been of tremendous assistance in 
ensuring that this funding was available for UOPSC, and for that we are 
grateful.
    Additionally, we realized that one of the primary obstacles in 
preparing a public safety plan was the question of where the funds 
would come from to implement the plan. It is extremely expensive to put 
state and local officers on overtime duty for weeks, and it appeared 
that funding questions might drive the decisions for a while, instead 
of allowing public safety requirements to determine the appropriate 
plan. Working with the State, we asked the Utah legislature to divert 
the tax on Olympic tickets into an escrow account that would be 
controlled by UOPSC and used to pay for public safety overtime. SLOC 
agreed to add $2 million to this account, providing the base funding. A 
grant from DOJ of $3 million, approved by Congress this past year, will 
also be included in the account, bringing the total to $18 million. 
Resolving this core funding question allowed the planning process to 
move ahead at a critical time.
    In summary, Mr. Chairman, the model of integrating government 
public safety agencies and the private organizing committee for 
security and public safety planning is one that I believe is working 
here in Salt Lake. While I believe it is a model that can be followed 
elsewhere, I do want to mention that much of the success of this 
program thus far stems from the high quality of the personnel that are 
involved. Bob Flowers, our Commission of Public Safety, who acts as the 
Commander of UOPSC, has the clarity of focus necessary to pull together 
an operation of this magnitude. Dave Tubbs, the Executive Director of 
UOPSC, is uniquely qualified for his position because of the experience 
and leadership skills he developed in the FBI. Mark Camillo, the lead 
agent for the US Secret Service, along with Norm Jarvis and other 
members of the team, have brought their knowledge and abilities to the 
table and provided the basis for the venue plans. They truly work as an 
integrated part of our team. Ray Mey, the FBI's Assistant Special Agent 
in Charge for the Olympics and Don Johnson, Special Agent in Charge, 
are both dedicated and capable individuals who quietly and with little 
fanfare put together the backbone of a complex crisis management plan. 
Their team is excellent and, although we hope their help will never be 
needed, we have tremendous confidence that they are ready to play any 
role necessary. Behind the scenes, Kathryn Condon and the special 
events team at the Army, have worked diligently with SLOC, UOPSC and 
the federal agencies to prepare for the Games. Now, with General J.D. 
Johnson taking the lead for the Army's Joint Task Force, they are 
rapidly moving into execution mode with the precision and speed that we 
have all come to expect anytime the U.S. Army is involved.
    Many other agencies, federal, state and local, are working quietly 
to pull together the public safety elements necessary for the Games. We 
all share the same goal--that public safety and other operational 
elements are invisible at Games time. Working together, with the 
tremendous team we have here, I am confident that we are on track for 
success.

    Senator Hatch. I want you to know that nobody is ever going 
to think that ``you are the weakest link.'' You have to admit--
I don't watch TV very much, but I caught that one night and I 
thought, my gosh, she's really good.
    We want to get the record as good as we can get it. This is 
important not just for the Salt Lake Olympics, this is 
important for everything we do in this country. We've learned 
lessons here and we could not otherwise have learned. This 
whole country has benefited from the efforts of the people here 
and will benefit much of their attention.
    There are elements, processes and difficulties that have 
really given us much to consider. So what you are doing is very 
important. I'm personally very grateful. Mr. Tubbs, I see 
eleven of you around this table.
    Before today, have all these organizations come together 
like they are doing today? If so, what level? How often? And 
what are your plans for the future?
    Mr. Tubbs. Sir, over 25 years in law enforcement I've seen 
a lot of lip service paid to cooperative effort among state and 
local agencies. That is not the case here in any way, shape or 
form.
    Director Stafford has been out on a number of occasions and 
I talked to him other than here in Salt Lake City and he's been 
very involved in what's going on. Assistant Director Watson has 
been out here from the FBI. They both came out for FIX to see 
how preparations were moving along.
    Representatives from the Department of Justice before Mr. 
Thompson became involved. Bob Cain's representative came out. 
Pete McCursky from FEMA. Mark Cunello from the Secret Service. 
And Don Johnson and myself, see or speak almost on a daily 
basis. So there's nothing phony about seeing these people 
around this table. We've all been involved in this. David 
Schwendiman is there on a daily basis and I see Paul. It's been 
an effort where everybody gets together and it's something that 
everybody has shown concern for and it's been excellent.
    As far as the future, this will continue. Because we do 
meet. And I expect now that director will be on the hook to 
come out for the next command post exercise, I certainly expect 
everybody to be here.
    Senator Hatch. I mentioned before that I was impressed with 
the stand up of the public safety commission. You talked about 
your success as an integrated state, local, and Federal agency. 
What barriers have you met? And how have you dealt with them?
    Mr. Flowers. Senator, I'm Bob Flowers. I wasn't given the 
opportunity to make an opening statement. I have been only 
board about 5 months, when I came in the door, the Governor sat 
down with me and we had some direct conversation about what my 
role will be in this just to go in and identify the issues.
    I have not seen those. We have had issues come up. But 
every time we have a problem, for instance, where things get, 
like trying to get traffic controllers, those topical issues, 
those have been issues, not problems. The barriers have been 
identifying dollars at times, but every time we've come around 
the table and come up with solutions to the issues.
    There have been some local issues that--some questions of 
jurisdiction things. The way I see this is we will work as 
normal as it does if something happens tomorrow. Chief Dinse 
and I have talked in detail about this. Expand it up to the 
Federal, we've talked with Don Johnson weekly. I agree with 
what Dave Tubbs said. The secret to this has been communication 
and getting to know each other and spending lots of time 
together.
    I had an individual tell me when I was coming in the door, 
he called me and we talked and he said that you had to put your 
ego in your pocket and word so hard. I find that to be really, 
really true.
    But as far as problems, I just have not seen those. I 
thought there would be, frankly. As a police chief, I have had 
problems on a local level. This has been a magnificent effort.
    Inspector Stafford and I, he sent me cards a couple times 
asking is there anything that I can do? And I was flabbergasted 
by that. I thought it was wonderful. So my experience as the 
UOPSC commander I have not seen those issues. So, maybe Rick 
would like to address that.
    Mr. Dinse. Am I supposed to find some?
    Senator Hatch. If they're there, you are supposed to find 
them.

STATEMENT OF CHARLES DINSE, VICE DIRECTOR, UTAH OLYMPIC PUBLIC 
 SAFETY COMMAND AND SALT LAKE CITY CHIEF OF POLICE, SALT LAKE 
                           CITY, UTAH

    Mr. Dinse. Well, thank you, Senator. It is a pleasure to be 
here, a privilege. Some of my comments in my formal 
presentation was aimed at my limited time. Actually, I have 
only been part of the command for the last nine months. So I'm 
just a little bit longer than Bob has. And I have to say, I 
have been truly impressed.
    My experience goes into planning and preparing and 
implementing phases of some fairly large events in my life with 
the Los Angeles Police Department, all the way from some major 
demonstrations, as well as major events such as Democratic 
National Convention, the `84 Olympics most recently.
    I have to say that there are disagreements and we have 
those among ourselves. We have challenges to one another and 
that is what I would hope to see in this process because if we 
do not challenge ourselves, if we do not question if we are 
doing the very best for each other, then we're letting 
ourselves down.
    And in every case, we have conceded where necessary, in my 
opinion, we have enhanced the ideas of everyone. I think this 
process is as healthy as I have been a part of and truly is a 
privilege to be here. We're going to continue to do that.
    [The prepared statement of Mr. Dinse follows:]

 STATEMENT OF CHARLES F. ``RICK'' DINSE, POLICE CHIEF, SALT LAKE CITY 
                                 POLICE

    Honorable Chairman and Members of the Committee:
    As the Chief of Police of Salt Lake City and Vice Chair of the Utah 
Olympic Public Safety Command (UOPSC), I want to thank you for the 
opportunity to appear here today. Having spent over 34 years of my law 
enforcement career with the Los Angeles Police Department, I have had 
the opportunity to be involved in security preparations for several 
national and international events such as the 1984 Olympics, 1987 
Pope's visit to Los Angeles and most recently, the 2000 Democratic 
National Convention. In my various capacities and most specifically, as 
the Emergency Preparedness Coordinator for the Los Angeles Police 
Department, I also had the opportunity to work closely with and/or 
provide training to a multitude of local, state, federal, and 
international agencies and organizations on police response to major 
events and emergencies. In light of this experience, and although I 
have only been part of this process for a little less than a year, I am 
nevertheless impressed with the substantial progress and cooperative 
effort of all the agencies involved in this huge endeavor. That is not 
to say that some disagreements and difference of opinions have not 
occurred. They have, but I have never been involved in any large scale 
planning process where bright minds and talented professionals did not 
disagree from time to time. That is to be expected and even encouraged. 
If we are to be fully prepared to provide a safe environment for these 
great Olympic games, then it is absolutely essential that we challenge 
ourselves and each other to ensure that every contingency, every 
concern and every idea is thoroughly considered and debated. While I 
cannot speak for what occurred prior to my participation, I can only 
say that this team of local, state, and federal officials that I 
interact with almost daily are among the finest most competent law 
enforcement professionals that it has been my pleasure to associate 
with, and I am confident that come February 8, 2001, we will be ready. 
Thank you Mr. Chairman.

    Senator Hatch. Thank you.
    Mr. Watson of the FBI, what are they doing in the area of 
intelligence collection and coordination for the games? What 
steps have been taken to ensure that this intelligence is 
shared with us out here, with the appropriate people?
    Mr. Watson. Senator Hatch, we come with two parts. First of 
all, the local intelligence collection effort and what's going 
on in and around Salt Lake City is a function of our joint 
terrorism task force. That information is developed, reported 
and passed to all partners at this table and wherever the need 
jumps in.
    Senator Hatch. You bring people with top secret clearance?
    Mr. Watson. Yes, sir, there are 40 individuals on that task 
force that will have and do have those security clearances and 
will continue to do that. The first part of the question here 
locally is whatever is developed, Salt Lake Police Department, 
in the intelligence arena, a threat or anything along those 
lines were passed through the joint terrorist task force or 
vice versa.
    On the national scene, prior to the Olympics, the 
intelligence collection will be a No. 1 priority for the 
intelligence community. Based upon that collection effort, 
regardless of where it is in the world or if it is internally 
within the United States, through our other joint terrorist 
tasks forces, that information will be funneled back to the 
counterterrorism division who will get the through our Salt 
Lake city office and joint terrorist task forces which will 
then be shared with the command out here.
    They will, in addition to the joint terrorist task force, 
individuals with top secret clearances that I know you are very 
interested in, we will make sure that information gets out. Not 
only that, we're also in the business of warning if there is 
threats or if there are nonspecific threats or specific threats 
during the time of the Olympics. That will be disseminated 
either classified or unclassified throughout the United States, 
through the warning system that we have. We can go out and 
instantaneously go out to law enforcement. I assure you 
intelligence will get here. We will have people cleared that 
need that.
    Senator Hatch. Director Stafford, can you tell us about the 
efforts you've taken to ensure that security will not have an 
adverse effect on the athletes and/or spectators of the games?
    Mr. Stafford. Mr. Chairman, we're extremely sensitive to 
that and this is not something new to us. We work very closely 
with the White House staff as we have here with Mitt Romney and 
the Salt Lake City Organizing Committee.
    First thing you do is to ask what we're trying to 
accomplish, just what we like to see and choreograph security 
around that. A perfect example is, Mitt mentioned with the 
volunteers working. We have the best program in the world. 
Everywhere we go, uniform division will be out here 200 strong 
to support that effort with logistics and ensure that athletes 
and spectators aren't held up.
    Senator Hatch. Director Stafford, please describe the role 
of the military in your counterterrorist security plan and in 
cooperation, are you confident that you will receive all the 
resources from the defense department you've asked for and that 
you require? While we're at it, how many of the agencies are 
meeting together?
    Mr. Stafford. We can assure that we will. Again, I take my 
hat off to Mark Cunello who has worked very well with, Mark 
Cunello and his staff have done a tremendous job. As you know, 
I have been my first visit here was in `98 and I made the 
mistake of using the acronym NSCE, nobody knew what that was.
    The military as Kathryn pointed out has been extremely 
supportive. We use military DOD, again, daily for our 
activities. We have to have them out here. There will be a lot 
of them. Augmentation to the area security, radar for the 
military and all physical security items that we need. The 
military has assured us they'll be here.
    Senator Hatch. We've heard how many agencies are 
participating in working together in these exercises. Can you 
tell us is DOD participating beyond where the director has 
indicated in all of those exercises and, if not, when will 
these units be identified so that they can?
    Ms. Condon. We have participated in all the exercises to 
date. We have even assisted in some of the plan for the 
exercises and will continue to do so.
    Senator Hatch. OK. UOPSC and the Utah firms, we have 
reviewed your plans for Olympic public safety planning. It 
seems that the concept for the square in particular was a long-
term planning evolution. Just please explain how the process 
works.
    Mr. Dinse. Thank you, senator. The square is a concept that 
took some planning. We owe lot to the Secret Service for 
providing us with a lot of guidance and direction.
    As you are probably aware, the square makes up three major 
venues. One, the medals plaza and the ice center, which is the 
Delta Center. And then also it encompasses the main media 
center all within a fence line. Our original view of this was a 
three areas, those three areas of the state security problems 
separating by fences and magnetometers.
    Through the efforts of the Secret Service working with us, 
there developed the open fence line, I say open in that we have 
one fence line and all of the three venues are controlled by 
entry to allow the public access with controlled entry. And we 
will control what comes into that area.
    But basically, much of the Olympic experience will be open 
to the public square area and then a ticket is necessary to get 
into the various venues. Now, this will, we believe, allow full 
participation of the community as well as those who can see the 
Games and see them safely.
    Senator Hatch. Mr. Beattie, I understand that the efforts 
to provide public safety, these efforts have been and will 
continue to be a state-wide effort. Would you please explain 
this involvement in putting manpower as well as the financial 
commitment of the State of Utah, state and local participation.
    Mr. Beattie. Certainly. First of all, it should be 
understood that the Olympics are much greater than just public 
safety, which is what this hearing is all about. Many different 
facets of public safety including public health are all parts 
of the State of Utah step forward including our DQ, Department 
of Environmental Quality and many other assets, food 
inspections, Department of Agriculture, cost of the state 
budget has been large.
    Also a great partnership with the SLOC in a partnership 
that an agreement made between the legislature and Mr. Romney 
in relation to waiving the sales or the tax on tickets as they 
went out which has sold on every other ticket in the State of 
Utah. That sum was about $13 million and it was agreed to that 
they would pledge that for public safety alone in the State of 
Utah.
    More importantly, I think, Senator, is the impact across 
the state of Utah. We have a total of about 3,000 law 
enforcement officers in the entire State of Utah, when we stand 
back and look at what the needs are of the Olympic effort. We 
right now are planning for some 2200 Utah public safety 
officers to participate in the Games during Game time.
    That means that we have everything from our large Wasatch 
Front communities to our small rural communities who have 
dedicated their police officers at their cost to come and be 
part of this effort.
    They then are picking up the cost including the benefits of 
their officers with gracious help of the Federal funds that we 
have and again with SLOC overtime that would be required by 
them for their absence within their jurisdiction to cover the 
existing officers will then be picked up by the assistance of 
Federal dollars that have----
    Senator Hatch. That's not quite figured out yet, is it?
    Mr. Beattie. It actually has been worked out, as far as the 
overtime, time period. It is agreed that they will pick up 
those costs. What continues to be worked out is actually the 
assignments of public safety officers, how many we really need 
at different locations.
    That is what is continuing to be worked out as we refine 
our efforts in response to recent numbers that were given to us 
from Secret Service and FBI as they assist us.
    Again, the local participation goes well beyond Salt Lake 
City and the counties that have venues in them. And it's been 
really a great deal of gratitude, across the state to see small 
police departments willing to dedicate their equipment and 
officers to come and be part of this great opportunity.
    Senator Hatch. Mr. Watson, let me get back to you. You've 
given us a little bit of knowledge. What efforts have the FBI 
undertaken regarding international cooperation among law 
enforcement agencies?
    Mr. Watson. Senator, to answer that question you know about 
the long established relationship with the agencies and 
counterterrorism center. Not only the agency, but all the other 
partners participating in that, we regularly and routinely 
through back at headquarters have liaison with many, many 
foreign law enforcement officials, services.
    We continue to ask that and put out information to those 
agencies as the Olympic approaches to funnel any information 
they might develop that might have the slightest impact here in 
the Salt Lake City Olympics. So we do that on a continuing 
basis.
    In July, the intelligence center will be established up 
here. That will make sure that that information is coordinated 
and prior to the Olympics approximately 3 months we'll publish 
from the national level, feed it back through here, a threat 
assessment and that will incorporate all those. Then as the 
Olympics proceed, it will get down to a daily assessment. Any 
information anywhere in the world that has an impact here, I'm 
very confident that that information will be provided.
    Senator Hatch. Mr. Magaw, with regard to FEMA do you see a 
role for FEMA's headquarters in Washington or is it all being 
handled by the regional office?
    Mr. Magaw. There's a role for headquarters and most of the 
time that's to stay out of their way. Put good people out in, 
of course, this region is the Denver region. We confer with 
them. Talk with all of the entities. Make sure that the 
coordination is taking place. Make sure we're speaking with 
your body on the hill to make sure that we have the funds to 
meet their needs out here. And stay kind of in an oversight of 
coordinating but let them do the interface.
    So many times when incidents occur, one of the things FEMA 
has learned is that when you go out to an earthquake or go out 
to a flood or any kind of disaster, or whether it be a bombing 
in Oklahoma City, the people that have to function together 
when the chips down are those people who have trust in each 
other and see each other and communicate with each other every 
day.
    And so we take the position that put people in the right 
position, support them, monitor, but don't get in the way.
    Senator Hatch. Mr. Warner, what initiatives have you 
instituted or applied to your office from your studies of the 
Atlanta Olympic games?
    Mr. Warner. Senator, I think the primary lesson we learned 
from Atlanta was that we needed to get involved early, and we 
would need to integrate the efforts of the U. S. Attorney with 
the Department of Justice.
    When I was appointed to the U.S. Attorney 3 years ago, 
literally the first thing that I did was to take a step back 
and say, oh, the Olympics are coming, and what are we going to 
do about them? I sent Dave Schwendiman and others to Atlanta to 
talk about issues down there, to learn from their experience.
    I can remember well and I'll keep this short--I remember 
well a few years ago when Dave Tubbs was the SAC here in Salt 
Lake City for the FBI, Mr. Schwendiman, myself and Mr. Tubbs 
met with Attorney General Janet Reno who was here in Salt Lake. 
We sat down and talked about that coordination, and that effort 
of linking up main justice with the U. S. Attorney's office 
here in Salt Lake and other Federal resources and feeling that 
cooperation.
    Bob Cain from the department became a big part of that 
cooperation. I think that that early shift from thinking of 
``they'' and ``us'' into ``we'', really changed the paradigm 
for us and enabled us to move forward in a way that we truly 
speak with one voice from the Department of Justice.
    In addition to that, we reached out through an LECC 
initiative to both Federal, state, local, agencies.
    Senator Hatch. I think we've come a long way in this 
hearing, learning a lot about what's involved, everything from 
intelligence to law enforcement to just plain public safety. I 
have been really impressed with each and every one of you.
    Let me ask you this, Mr. Thompson. It's my understanding 
that during the 1996 Atlanta Olympics you worked in the private 
sector capacity as a consultant to the Olympics. So you should 
have particular interest and an appreciation for the problems 
that we have out here. And we can certainly benefit from your 
experience.
    You and I have known each other a long time and I have a 
very high opinion of you. I know you received a tour this 
morning from the SLOC. What's the No. 1 message you'll be 
taking back to the District of Columbia?
    Mr. Thompson. Senator, I think that the message that I will 
be taking back is that there are two important things that you 
need to do to have good and effective law enforcement being 
carried out in an outstanding way here in Salt Lake City.
    First of all, you need planning and I took a tour of the 
facility today, and I was really impressed with everything that 
I saw. There has been extensive detailed plan efforts that have 
been carried out and will continue to be carried out and that's 
very important.
    And as Mr. Tubbs said, there is real cooperation going on 
between and among the various agencies at this table, agencies 
that are working together side by side in many instances and as 
a real--at least I sense there's a real sense of shared 
commitment to the mission of public safety and security for the 
2002 Winter Olympics.
    I would like to pledge to you that Attorney General 
Ashcroft and I will do anything and everything possible to 
ensure public safety, security in the 2002 Winter Olympics and 
I have been very impressed with what's been going on and 
congratulate everybody at this table for an outstanding job 
that has been done. They are all great law enforcement 
professionals.
    Senator Hatch. I appreciate that. Let me ask this question 
to each and every one of you. I'll go around the table from 
Chief Dinse all the way through. Do you have any budget 
concerns and what would you like to see us do? I'd like to get 
it on record. It's very important that everyone know, this may 
be the Salt Lake Olympic Games but it's for our whole country 
and the whole world. We can't let this system down. We need to 
know what the needs are. We'll go around the table and hope you 
can do it.
    Mr. Dinse. Well, yes, I do. Budget is a big part of all 
that we're trying to accomplish here and trying to prepare 
ourselves for these games. Training is a big issue. I think I'd 
like to improve some of our ability to train on a consistent 
basis right up until the Games.
    Senator Hatch. Training of safety people?
    Mr. Dinse. Yes, public safety. I'm speaking purely from the 
public safety arena. There are budget constraints throughout 
the whole plan and the preparation. But from a public safety 
position, I think training is key. We need all the 
opportunities we can to train and that is a physical issue when 
you are dealing with people that----
    Senator Hatch. As you answer the question, give me your 
single biggest concern, from each of your perspective in making 
the games come off smoothly, in a smooth and efficient fashion. 
Is it money? Is it people? Is it equipment? Or anything else 
for that matter?
    Mr. Tubbs. Sir, I think all of those potential issues we 
can work out most of them, except the money. One of the things 
we want to make certain of is that if our Utah communities come 
forward with police officers and environments and emergency 
medical personnel, when it comes time to reimburse them for 
their involvement, we want to be able to do that. So that is 
our primary concern.
    Ms. Condon. I hate to sound like a record here, our concern 
also is money, sir. To date, in our no year fund we only have 
dollars to support the known requirements, any unknown 
requirements we do not. Money will have to be appropriated.
    Senator Hatch. I'd like you to really stop and think and 
get the people to think for the future what do we need? What 
else do we need? One reason I'm asking the question is so when 
we get out what our needs are now so the people back there 
think about it too. And frankly from a state standpoint, we 
want to hear what the state needs to do. Go ahead.
    Mr. Flowers. Sir, I too am concerned with budget issues. 
For instance, we have a plan, and the majority of our dollars, 
almost half of it is still kind of gray, if I understand that 
right. It's really difficult for us to set down the hard fast 
plans and make contracts when we don't know the final 
commitment of the dollars until, I guess, October.
    That's difficult for us because, frankly, that puts us 3 
months out. For the amount of money, that makes it very 
difficult.
    Senator Hatch. I think you need to estimate as well as you 
can.
    Mr. Stafford. Mr. Chairman, the funding is a huge concern 
to the Secret Service. It's been very unsettling for us in that 
that component there's been no funding mechanism in place in 
2002, Secret Service has zero dollars and the tab is going to 
be quite large.
    In the past, we've been able to absorb the cost and later 
try to supplement, but these figures are too large. We can't 
ignore this amount of money. We are spending money. This is a 
huge problem for me particularly.
    Senator Hatch. We would like you to help us to know what 
our needs are, what we are going to need to do. You are not 
able to solve things supplementally. We'll just have to see.
    Mr. Thompson. I'll rely on our component, Department of 
Justice agencies to tell us about funding. I'm sure they will, 
if that's necessary. Senator, as someone who has been involved 
in law enforcement for a number of years we need to continue to 
have cooperation efforts that I mentioned.
    These are real serious concerns that we are dealing with as 
far as public security. They are even beyond our country. We 
really need to keep our nose to the grindstone. These are very 
important issues. So that's my concern that we continue to have 
the tenacity.
    Senator Hatch. I may call upon you to help us to make a 
case. Mr. Magaw?
    Mr. Magaw. Although the planning and things that we have 
talked about here today and FEMA does have a budget of 2002 to 
handle those things. What FEMA is a little concerned about is 
that training in the equipment for our first responders.
    There is a lot of exercises, a lot of training that can be 
done, we are trying to be as helpful as we can. We think we 
need some more money in that area. Because if something does 
happen, whether just a person or number of persons being ill, 
to some kind of a chemical being dispersed, the people that are 
going to be there first are those first responders, fire, 
rescue and medics. Do they have the proper training? Do they 
have enough training and enough equipment? That's a concern 
that we're all concerned about.
    Mr. Beattie. When we talk about the training it's important 
to understand that because we're using so many of our local 
individuals, that they come from a variety of different sizes. 
Certainly we use the example of Salt Lake City who have, 
actually, tremendous support for what they are about to 
undertake. Yet they still need some special assistance because 
of the magnitude of the responsibility.
    Then we go to a place like Wasatch County, everyone in the 
counties dealing with emergency management are volunteers. And 
the importance of having money to make sure that they have the 
special training that they are required, some of the money that 
has already come has been used for that, but that's special 
unique situations in those kinds of counties.
    Certainly, some of the other components that don't have 
venues but are also impacted by the games, Morgan is another 
one that also has some impact.
    I guess if I were to say what my greatest concerns are is 
commitments already made, congressional money, making sure the 
money gets to us in a timely manner. Again I will also comment 
here about a month ago we had a concern dealing with our.canal, 
dealing with virtually the public safety banquets that we are 
going to use. There was concern we needed some money to make 
sure that our infrastructure was built for that.
    With a few calls to some of these individuals at this table 
and others, that money immediately flowed to where it was going 
to need to be spent. And we appreciated that and the assistance 
of your office, as well as Senator Bennett's.
    Those are the kinds of concerns that I think everybody 
talked about here to make sure that they are received in a 
timely manner. And then of course, there are ultimately 
concerns with making sure the Federal agencies have the money 
that they need for the commitments they've already made.
    Mr. Warner. Senator, I think that I have one comment, sort 
of a general observation rather than a specific narrow 
observation about the U.S. Attorney's involvement.
    I believe in 1995, when we first learned the Olympics were 
coming to Utah there was a sense of euphoria in some quarters 
of law enforcement, people picturing an unlimited cash cow that 
would make toys available for all members who wanted to come 
and enjoy the games. I don't mean to use too broad of a brush. 
I think there was a lot of that going on.
    I think with the passage of time, reality has set in and 
people realize that neither the state nor Federal Government 
has a cash cow, SLOC doesn't have a cash cow, and public safety 
like everybody else has to be responsible in their budget 
planning and requests. And I think that has happened based on 
my observations and discussions. And indeed, I think that they 
have established credibility by being responsible at what they 
really are asking for.
    On a more specific note, relative to our office, I have 
been gratified and I want to publicly acknowledge that the 
Department of Justice has been extremely supportive of all of 
our efforts and initiative. They have been responsive to all of 
our requests relative to our needs in preparation for the 
Olympics.
    We've tried to be responsible in not asking for the things 
that we really didn't need. They have provided everything that 
we have needed and I believe we're in good shape for handling 
our priorities relative to the Olympics.
    Senator Hatch. Thank you. Mr. Watson?
    Mr. Watson. Senator Hatch, working with Don Johnson and the 
staff for the 02 budget and submitting that through the 
Department of Justice, we have planned out responsibly what we 
need for the Olympics and if that survives in the 02 budget, 
we'll be fine.
    Senator Hatch. We've waited for this moment.
    Mr. Romney. It's not as bad as you think.
    Senator Hatch. Let me just say you've made a pretty 
interesting case, that these prior Olympics have cost a lot 
more money than ours is going to cost. But I want to compliment 
you and all these major players.
    We have a marvelous group of people working with you. You, 
yourself, have really made this very fiscally conscious. I have 
really appreciated that. I have watched that through the years. 
And you have done a really good job.
    Mr. Romney. Thank you, Senator. I'll just summarize the 
funding issues we all talked about, because I think there are 
three buckets or three categories of areas that I don't think 
we're in trouble on any of these, Senator. But I think they're 
important for us to understand and recognize.
    One is the funding of all of the work of these agencies. We 
spent the day here today talking about how we have come 
together and created an integrated plan, public safety plan, 
how all these agencies have come together and made the whole 
thing work together. And all of that depends on them being able 
to fulfill the roles that this plan calls for.
    And they have laid out what the cost of these things are 
right down to the shoe laces for the people who will be working 
here. And we've taken all of those agencies and looked at what 
the estimate is of the cost of the funds they will need to 
carry out their mission under this plan and fortunately it's 
part of the president's budget.
    The White House included OMB, included the total of all 
these things. There are a couple of other things including 
customs in here and so forth. The total is $116 million of 
Federal funds going to Federal agencies to allow them to carry 
out the security efforts, by and large, of the plans they've 
put together. That's one category and I believe the president's 
budget and these elements will be maintained.
    I would note what little fear might I have, it might be 
that someone can say let's take that 116 down to 98. We can 
always cut things a little bit. The challenge here is that this 
is an integrated plan that can't be cut piece by piece.
    If the Secret Service has got agents surrounding a venue, 
we can't cut that number of agents 20 percent and still have 
the venue protected. So it's a plan which is integrated and 
holistic. That's part of the president's budget.
    Second, there is carrying out the local law enforcement 
aspects of that plan, the aspects of that plan which is largely 
providing overtime for law enforcement officers who are coming 
to be part of that program. That's an additional $12.7 dollars. 
That is funding that goes to UOPSC which in turn goes to local 
law enforcement agencies to provide for their officers coming 
to the Games.
    The third category that I would mention is just the 
emergency category. Kathy Condon mentioned that. It's not 
funding for any specific task. It's just saying there is an 
account for the department of SISC, account, which is there for 
this type of account.
    We'll probably bleed it entirely dry based on what we have 
planned and you'd say to yourself you'd like to have some money 
there just in case, just in case there's an avalanche, we're 
not likely to get a hurricane but just in case there's some 
kind of event that says we need some help from the Army, Air 
Force or whatever to come in and help out. It would it nice to 
have some funds there. What the number is, I don't know. No one 
wants to venture a guess on that. But it's a no year account 
which is just there in case of contingencies. Those are the 
three categories.
    Senator Hatch. Thank you so much. I'm going to keep the 
record open, so that the more specific numbers can be submitted 
to the Committee on what your needs are. And I'd like you to 
take those and in light of what Mr. Romney has said here, give 
us the best advice you can. I don't want to wait until it's 
over. We'd better find out before.
    Again, I want to thank the panel, each and every one of 
you, for your insight and forthright testimony today. I think 
collectively, you have all demonstrated that the planning and 
execution of the public safety initiative for the 2002 Winter 
Olympics is indeed in very capable hands. I'm really impressed 
with what all of you are doing.
    I'm most encouraged by the degree of cooperation and 
coordination in your planning efforts. I don't know of any 
other situation where we've been able to get all the agencies 
to work so well together. But this is something that can be 
duplicated many times over.
    I encourage you to continue this cooperation. That will 
assure a seamless public safety system. I hope that you'll 
continue to keep the Committee and Congress completely informed 
on your progress, so that if there are some needs we might be 
able to help with then.
    Again, this has been a big undertaking to hold the hearing 
with all of you coming in from all over the country. I 
appreciate the valuable time you have given to us. I want to 
thank you, each and every one of you, for being here and thank 
you for the great work you are doing.
    Everybody in Utah is in your debt. I think the people in 
this country will be in your debt. And we want these Olympic 
Games to be the best in the history of the Olympic Games. We 
think they will be.
    I think Mitt summed it up when he started talking about the 
real spirit of the Olympics that is permeating this state like 
you cannot believe. To have 64,000 volunteers for 26,000 
positions right off the bat, you can imagine the interest this 
whole state has taken in this and how much the people of your 
state are getting behind it.
    That is because of the leadership many of you and Special 
Olympics, SLOC Committee here, you, Mr. Romney and others who 
have done a lot to bring this community together and bring all 
of the elements together. I just want to personally praise all 
of you and tell you how much I appreciate that.
    With that, we'll recess until Senator Leahy takes over the 
committee. Thank you. Good to see all of you.
    [Whereupon, the Committee was adjourned.]
    [Submissions for the record follow:]

                       SUBMISSIONS FOR THE RECORD

        Statement of the Immigration and Naturalization Service

    International sporting and cultural events, such as the XIX Winter 
Olympic and VIII Paralympic Games (Games) being held in Salt Lake City, 
Utah, require an essential level of cooperation and coordination among 
Federal, state, and local government agencies and private entities. The 
Immigration and Naturalization Service (INS) has a natural role in 
support of the Olympics since the event will bring together athletes 
and participants from eighty nations, and visitors to the United States 
(U.S.) from numerous other countries.
    The INS' challenge is to support the unique requirements generated 
by the Olympic Games, while maintaining the current levels of law 
enforcement and immigration services relating to those customers and 
communities not involved in the Games. As an active partner in the Utah 
community, the INS works diligently to address immigration issues of 
concern to the community on a daily basis, and is prepared to support 
the goal of hosting an international event that is incident-free.
    Our continued support to the community will be provided in a manner 
that promotes public safety while avoiding adverse impacts on Olympic 
and cultural events and the experiences of visitors to the area. This 
will be accomplished by coordinating the enforcement activities 
associated with the apprehension of alien smugglers; the expeditious 
and efficient removal of detained aliens from local jails in 
coordination with the U.S. Attorney and the Utah Olympic Public Safety 
Command (UOPSC); identifying aliens that are involved in illegal 
operations intending to disrupt Games activities and visitors; and 
providing intelligence information to law enforcement agencies.
    The INS' support to the Games involves five basic functions. Our 
responsibilities include: 1) facilitating the entry of Olympic Family 
Members and spectators while denying admission to foreign nationals who 
could be a threat to the security of the games; 2) providing 
intelligence and law enforcement support to the UOPSC by removing 
illegal aliens convicted of crimes at the Designated Olympic Court 
sites (DOCS) and responding to law enforcement agency requests for 
assistance with foreign nationals suspected of being involved in 
terrorism or criminal activity; 3) furnishing immigration services to 
athletes and visitors; 4) safeguarding anyone requesting asylum or 
attempting to defect; and 5) assisting the U.S. Secret Service in 
securing selected venue sites.

                          International Entry

    The Salt Lake Organizing Committee (SLOC) will officially accredit 
over 90,000 persons to both Games. Approximately 29,000 of these people 
will be foreign nationals entitled to special entry procedures 
developed to fulfill commitments made by the President to the 
International Olympic Committee (IOC) under the terms of the Olympic 
Charter. The Olympic Charter states: ``the Olympic identity card or 
accreditation card establishes the identity of its holder and 
constitutes the document authorizing entry into the country in which 
the city organizing the Olympic Games is situated.''
    For the purposes of the Olympic and Paralympic Winter Games, the 
Olympic identity card and accreditation card have been combined. 
Consequently, high-tech Olympic Identity/Accreditation Cards or 
Paralympic Identity/Accreditation Cards will serve as a valid travel 
document (nonimmigrant visa), when used in conjunction with the alien's 
passport, for individuals that are accredited by the SLOC as an 
Olympic/Paralympic Family Member (OFM or PFM). These persons include, 
but are not necessarily limited to: athletes, coaches, trainers, 
support personnel; international judges; and officials of the 
International Olympic Committee (IOC).
    The INS has been working with SLOC and the Department of State 
(DOS) for over two years to develop a formal clearance protocol for 
Olympic accreditation. This process, which includes checks against 
immigration and criminal databases, is managed through the Olympic Visa 
Information Database (OVID 2002), maintained by the DOS, and linked to 
appropriate USG security agencies and to SLOC. For the first time, the 
visa process will be done almost completely electronically between 
those agencies and relevant consular posts. The database maintained by 
the DOS will include all relevant information needed to issue a visa 
and a digitized photo of the alien in question.
    As a nonimmigrant visa, the official identity cards are considered 
secure documents, and the INS' Forensic Document Laboratory provided 
input to SLOC on the development of the card's security features. The 
document can be used no more than thirty days before and after the 
Games.
    Once the card is issued, the information on the card will be 
downloaded from the OVID2002 system directly into the Interagency 
Border Inspection System (IBIS), which is used at all Ports-of-Entry by 
both Immigration and Customs Inspectors to verify the authenticity of 
the document.
    The INS is currently producing a training video regarding the cards 
for Immigration personnel, both domestically and abroad, U.S. Customs 
personnel, DOS Consular Officers, and other law enforcement agencies 
that will need to understand the use of the card.
    Unlike Atlanta, the INS anticipates that foreign arrivals for the 
Games will enter at POEs other than Salt Lake City. A training team 
will be travelling to as many POEs as possible in the fall to provide 
hands-on training to inspectors for INS and Customs. A limited version 
of the video will be provided to transportation companies, such as the 
airlines, to train boarding personnel in the identification and proper 
use of the OI/AC and PI/AC.

                            Law Enforcement

    The INS participates in numerous law enforcement task forces, 
working groups and conferences at the local and regional Office levels. 
Additionally, INS sits on the Federal Affairs Olympic Working Group 
chaired by the U.S. Attorney in Salt Lake City.
    The development and coordination of the INS' operational support 
plan for the Games is based on statutory mandates and the current 
Security Plan established by the UOPSC. To assist in the execution of 
the security plan, INS will staff the International Entry Desk in the 
Olympic Coordination Center (OCC) during all its hours of operation 
during the Games. The OCC will oversee and coordinate public safety and 
security functions under federal jurisdiction during the Games.
    In order to support the OCC's requests for assistance, an INS 
Olympics Support Center (OSC) will be established and be co-located in 
the Sub-Office. Detailed personnel from INS will support the OSC. As 
required, the Salt Lake City sub-office personnel, including the Quick 
Response Teams (QRT) in Provo and Ogden, will be used to augment the 
activities of the OSC. Certain functions, such as intelligence and 
communications, of the OSC will operate 24 hours/7 days a week for the 
duration of the Games to facilitate agency-wide command, control, and 
communications functions.
    The personnel assigned to the OSC will: execute directives from the 
OCC; assist local police in responding to crimes committed by foreign 
nationals; and maintain contact with INS enforcement officers assigned 
to DOGS. They will respond to any requests for information regarding 
the need to safeguard foreign nationals who are requesting asylum or 
attempting to defect, and address media inquiries, community relations, 
and legal matters that may arise.

                   Immigration Services and Benefits

    In an effort to provide an adequate workforce to support the Games, 
the INS Service Center has been working with the Department of Labor 
and the SLOC to process over 50,000 applications for employment 
authorization. As was the practice for the Atlanta and Los Angeles 
games, the Service has consulted extensively with both the Departments 
of State and Labor on implementing employment visa and entryrelated 
policies and procedures for the 2002 Winter Olympic Games. In working 
with the SLOC as well as private sponsors and employers, the INS, State 
and Labor have developed procedures that acknowledge the unique labor 
and employment situations presented by any Olympic games. At the same 
time, the procedures do not compromise any existing labor or 
immigration laws or policies, and do not guarantee any Olympicrelated 
employer blanket approval of either labor certifications or employment-
based petitions.
    In addition, INS personnel will provide information and benefits to 
the thousands of foreign athletes, coaches, media, spectators and other 
visitors to the area who seek such assistance during this period. The 
INS will provide information on the terms of their admission, requests 
for extensions of their stay, and seek to replace lost immigration 
documents. The services necessary to adjust their status or extend 
immigration benefits to visitors to the games, or OFMIPFM whose 
accreditation is withdrawn by SLOC, will be provided by on-site INS 
staff.

                           Asylum Processing

    Asylum Officers assigned to the Houston Asylum Office are prepared 
to promptly review the cases of any individuals who request asylum. INS 
Officers, trained under the Consenting Alien Protection Program will 
support the Asylum Officers, in the event special security arrangements 
are required.

                             Venue Security

    The INS will provide personnel to assist with the security of 
designated venues, in support of the security plans developed by the 
U.S. Secret Service and coordinated through the Department of Justice. 
The level of INS' commitment has yet to be determined, but is expected 
to be finalized within the next few weeks. Coordination will begin 
immediately, once the decision is made.
                               Conclusion
    In our ongoing support for the Games, the INS will ensure that the 
level of cooperation and coordination with state, local, and federal 
law enforcement and service agencies will be maintained at the high 
level that the Utah Community has come to expect.

                                <F-dash>

STATEMENT OF U.S. CUSTOMS SERVICE, CHARLES WINWOOD, ACTING COMMISSIONER

    Mr. Chairman, members of the Committee, thank you for this 
opportunity to testify on the law enforcement mission of the U.S. 
Customs Service at the 2002 Winter Olympic Games in Salt Lake City, 
Utah.
    As you are aware, the Customs Service plays a vital role in 
protecting the national security of the United States. In addition to 
defending our nation's borders from narcotics and other harmful 
contraband, Customs' broad mission includes the investigation of 
economic threats to American business such as the violation of 
Intellectual Property Rights (IPR). The agency also plays an important 
role in deterring terrorist threats and the smuggling of weapons of 
mass destruction.
    Our law enforcement mission at the Olympic games derives from both 
these core responsibilities and from the National Special Security 
Event (NSSE) designation. Under the NSSE designation, the Customs 
Service is assigned special counter-terrorism duties in coordination 
with other law enforcement agencies for those events deemed by the 
President to require such measures.
    In support of the 2002 Winter Olympics, Customs will enhance its 
overall investigative and inspection activities to correspond with the 
increased volume of international passengers and cargo anticipated for 
this event. To accomplish this goal, we will strengthen personnel 
resources in key areas as determined by our Office of Field Operations 
and Office of Investigations, the two lead departments for this task.
    At the same time, we will work to ensure that our processes remains 
efficient and transparent, and that our law enforcement 
responsibilities do not conflict with the smooth entry of equipment, 
cargo, and individuals participating in or attending the XIX Winter 
Olympic Games and VIII Paralympic Winter Games.
    Turning to our specific role in Salt Lake City: Intellectual 
Property Rights (IPR) violations represent the single most significant 
threat for Customs during the 2002 Winter Olympic Games. In recent 
years, there has been an enormous consumer interest in Olympic 
merchandise. Individuals attending the Olympic venues are eager to 
purchase souvenirs and Olympic memorabilia. Not surprisingly, 
counterfeit goods have flooded the communities surrounding Olympic 
venues. The Salt Lake Organizing Committee (SLOC), the U.S. Olympic 
Committee (USOC), and the International Olympic Committee (IOC) are 
greatly concerned with any erosion of rights, benefits or privileges 
granted to official Olympic sponsors, suppliers or licensees.
    U.S. Customs will temporarily assign an additional 42 special 
agents to conduct an IPR Special Operation during the Olympic Games. 
The Special Operation is designed to disrupt the importation and 
distribution network of counterfeit Olympic merchandise and allow for 
prosecution of significant offenders. Also, 12 laboratory technicians 
will be detailed to the Olympics to provide investigative support 
during the IPR enforcement initiatives.
    U.S. Customs and the Salt Lake Olympic Committee supported a change 
to the Harmonized Tariff Schedule of the United States, heading 
9817.60.00, which was enacted in 2000. This change allows for the duty 
free importation of equipment, material, and personal property 
associated with participants in the 2002 Salt Lake City Winter 
Olympics, and the 2002 Paralympic Games.
    Customs will deploy 30 inspectional personnel on a temporary duty 
assignment (TIDY) to Salt Lake City for our core responsibilities at 
the Winter Olympics (February 8-24, 2002) and 4 TIDY personnel for our 
core responsibilities at the VIII Paralympic Winter Games (March 7-16, 
2002).
    Customs will temporarily assign an analyst to the Olympics to 
support the Intellectual Property Rights enforcement initiatives during 
the month of February 2002. The analyst will have access to multiple 
databases that will assist in targeting for suspect violations and will 
provide support to investigations.
    Customs has identified New York, Atlanta, San Francisco, Los 
Angeles, Chicago, Miami, and Seattle as the primary gateway airports 
for athletes and tourists. These locations will be the focus of our 
efforts to bolster personnel resources. In addition, Customs will 
temporarily assign 213 inspectors along the Northern Border.
    The NSSE designation distributes primary responsibility for 
security at the Winter 2002 Olympics among three federal agencies: The 
Federal Bureau of Investigation (FBI), which is responsible for crisis 
management; the U.S. Secret Service (USSS), which has jurisdiction over 
the planning and implementation of security; and the Federal Emergency 
Management Agency (FEMA), which will oversee consequence management.
    The U.S. Secret Service has conducted site surveys for the 15 
Olympic venues and concluded that 1,981 federal law enforcement 
personnel will be required to secure the Olympic events. Customs has 
been tasked by the Under Secretary of the Treasury (Enforcement) to 
supply 200 special agents to augment the USSS security mission.
    The FBI has requested support from the U.S. Customs Service for 
their counterterrorism responsibilities during the 2002 Winter Olympics 
and Paralympics in Salt Lake City, Utah. This support will include a 
Senior Intelligence Research Specialist being temporarily assigned to 
the Utah Olympic Public Safety Command Center (UOPSC).
    Customs will be a part of a multi-agency command center that will 
have the mission of providing National Level counter-terrorism 
intelligence to law enforcement. The command center will develop, 
disseminate, and coordinate intelligence addressing counterterrorism 
and protection of our country's National Security.
    Under designated National Special Security Events, Customs has the 
unique role to enforce air space security under the USSS implementation 
plan. For the 2002 Winter Olympics, the Customs Tucson Air Interdiction 
Branch is the lead air asset coordinator, with other air branches 
lending personnel and equipment. The mission of airspace security is to 
prevent the disruption of Olympic events in all venues by an airborne 
threat. The overall objectives of the Customs Airspace Security Plan 
for the 2002 Winter Olympics are to enhance public safety, detect and 
sort potential air threats, early notification of intrusive activities, 
identify and deter unauthorized entries into Temporary Flight 
Restrictions, track aircraft to designated ``handoff'' areas for 
further investigation, and respond to an aggressive act in the 
appropriate tactical manner.
    Temporary Flight Restrictions (TFR's) will be established over the 
10 Winter Game venues to limit aircraft access. Airspace Security 
Operations will be conducted on a 24x7 basis to identify and sort 
aircraft operating within the vicinity of the TFR's. Customs Detection 
Systems Specialists, in cooperation with Federal Aviation 
Administration controllers, will detect, monitor and provide advisories 
to aircraft within the TFR's. Customs aircraft will conduct airspace 
security flights in and around the TFR's. Unauthorized aircraft that 
violate TFR's will be identified and potential violators will be 
directed to depart the TFR's and tracked to their landing sites. 
Violators will be handed off to law enforcement officials for interview 
or detention.
    The Customs aviation component will be phased in on January 26, 
2002 and phased out on February 26, 2002. This allows for briefings 
with day and night training and familiarization flights. The Aircraft 
utilized to cover the Airspace Security mission will include: one AS-
350 light enforcement helicopter; two CE550 jet interceptors; and four 
UH60 Blackhawk helicopters. An additional UH60, CE-550 and a C-12 
(multi-use utility aircraft) will be on ready relief at DavisMonthan 
Air Base, Tucson, Arizona. Eighty personnel will be temporarily 
assigned to accomplish this mission that include aircrew, management 
and maintenance.
    The Customs Service, in cooperation with other Treasury Bureaus, is 
installing a six site, six channel per site, Very High Frequency (VHF), 
digital, narrowband voice and data communications system to support 
tactical communications requirements during the 2002 Winter Olympics. 
One or more repeater channels at each site will be wirelined to the 
Customs National Law Enforcement Communications Center (NLECC) in 
Orlando, Florida. Four additional base stations will be wirelined to 
the Customs NLECC and will be connected to Hill Air Force Base to 
support Customs air-ground-air requirements.
    Additional communications equipment will be installed at various 
locations within the Salt Lake City area to support Customs inspection 
and investigative functions. Three Tactical Communications Officers 
(TCOs) will assist in providing on-site technical and maintenance 
support of the communications system and will program and oversee 
maintenance of 50 mobile, 220 portable and 2 consolette radios to be 
used by Customs personnel. The NLECC will provide Over-The-Air-Rekeying 
(OTAR) voice privacy encryption for all Treasury radios, including the 
Secret Service protective force, and will provide officer safety 
tactical communications and investigative database support to Customs 
and other Treasury officers supporting the Olympics.
    The U.S. Customs Olympic budget for the core mission requirements 
for the Office of Investigations (OI), Office of Field Operations 
(OFO), and Laboratory expenses are estimated at $1.4 million for FY 
2001 and $10.3 million for FY 2002. NSSE budget requirements for FY 
2001 are estimated at $161,000 and $3.5 million in FY 2002 for ground 
support. NSSE Air Interdiction support budget requirements are $652,000 
in FY 2001 and $4.9 million in FY 2002.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women of the U.S. Customs Service, I would like to thank you and the 
members of this Committee for your constant support of federal law 
enforcement and our efforts to ensure a safe and successful 2002 Winter 
Olympics.


</pre></body></html>
